<html>
<title> - HIGHLY QUALIFIED TEACHERS AND RAISING STUDENT ACHIEVEMENT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




       HIGHLY QUALIFIED TEACHERS AND RAISING STUDENT ACHIEVEMENT

=======================================================================

                             FIELD HEARING

                               before the

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                    May 27, 2004 in Phoenix, Arizona

                               __________

                           Serial No. 108-61

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-983                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Johnny Isakson, Georgia, Vice        Dale E. Kildee, Michigan
    Chairman                         John F. Tierney, Massachusetts
John A. Boehner, Ohio                Ron Kind, Wisconsin
Thomas E. Petri, Wisconsin           David Wu, Oregon
Michael N. Castle, Delaware          Rush D. Holt, New Jersey
Sam Johnson, Texas                   Betty McCollum, Minnesota
Fred Upton, Michigan                 Carolyn McCarthy, New York
Vernon J. Ehlers, Michigan           Chris Van Hollen, Maryland
Patrick J. Tiberi, Ohio              Tim Ryan, Ohio
Ric Keller, Florida                  Major R. Owens, New York
Tom Osborne, Nebraska                Donald M. Payne, New Jersey
Tom Cole, Oklahoma                   Robert E. Andrews, New Jersey
Jon C. Porter, Nevada                Ruben Hinojosa, Texas
John R. Carter, Texas                George Miller, California, ex 
Phil Gingrey, Georgia                    officio
Max Burns, Georgia


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 27, 2004.....................................     1

Statement of Members:
    McKeon, Hon. Howard P. ``Buck'', Chairman, Subcommittee on 
      21st Century Competitiveness, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     4
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada............................................     5
        Prepared statement of....................................     8

Statement of Witnesses:
    Butterfield, Dr. Karen, Deputy Associate Superintendent, 
      Innovative and Exemplary Programs, Arizona Department of 
      Education..................................................    14
        Prepared statement of....................................    18
        Additional statement submitted for the record............    53
    Noone, Dr. Laura Palmer, President, University of Phoenix....    23
        Prepared statement of....................................    25
    Simon, Raymond, Assistant Secretary, Office of Elementary and 
      Secondary Education, U.S. Department of Education..........     9
        Prepared statement of....................................    11
    Solmon, Dr. Lewis C., Executive Vice President, Director, 
      Teacher Advancement Programs, Milken Family Foundation.....    31
        Prepared statement of....................................    35


 
       HIGHLY QUALIFIED TEACHERS AND RAISING STUDENT ACHIEVEMENT

                              ----------                              


                         Thursday, May 27, 2004

                     U.S. House of Representatives

              Subcommittee on 21st Century Competitiveness

                Committee on Education and the Workforce

                            Phoenix, Arizona

                              ----------                              

    The Subcommittee met, pursuant to call, at 11 a.m., at the 
University of Phoenix, 4615 East Elwood Street, Phoenix, 
Arizona, Hon. Howard P. McKeon [Chairman of the Subcommittee] 
Presiding.
    Members Present: Representatives McKeon and Porter.
    Staff Present: Mr. Rich Stombres, Professional Staff 
Member.
    Chairman McKeon. The quorum being present, the Subcommittee 
on 21st Century Competitiveness of the Committee on Education 
and the Workforce will come to order.
    We're meeting today to hear testimony on highly qualified 
teachers and raising student achievement.
    I'd like to thank the University of Phoenix for hosting 
this hearing today. I'm eager to hear from our witnesses.
    But before we begin, I ask for unanimous consent for the 
hearing record to remain open 14 days to allow members' 
statements and other extraneous material referenced during the 
hearing to be submitted in the official hearing record.
    No objections, so ordered.

    STATEMENT OF HON. HOWARD P. ``BUCK'' McKEON, CHAIRMAN, 
  SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Good morning. I'd like to welcome each of you to this 
beautiful sunny area, the field hearing on the Subcommittee as 
we continue to focus on teacher quality.
    This will be the fourth hearing since the opening of the 
107th Congress that we have met to learn about teacher 
preparation, credentials, and ways to ensure our students are 
learning from capable and competent teachers.
    The purpose of today's hearing is to discuss the importance 
of highly qualified teachers in improving academic achievement 
for all students regardless of race, income, geography, 
English-fluency, or disability.
    The success of education reform efforts is increasingly 
seen as directly dependent on the quality of classroom 
instruction, and ensuring the quality of America's 3.2 million 
teachers is an essential part of providing an excellent 
education to all of our children.
    A growing number of studies provides conclusive evidence 
that teacher quality is the primary school-related factor 
affecting student achievement.
    Students who are taught by effective and competent teachers 
excel quickly, while those who are assigned to the least 
effective teachers lag behind and often never catch up.
    Especially troubling is the evidence that disadvantaged 
students whose futures depend most on the positive school 
experience are often assigned the least qualified teachers.
    For example, a report from the Education Trust, a nonprofit 
organization whose mission it is to make schools and colleges 
work for all of the young people they serve, found that in 
every subject area, students in high-poverty schools were more 
likely than other students to be taught by teachers without 
even a minor in the subjects they teach.
    The bipartisan No Child Left Behind law asks each state, in 
exchange for billions of dollars in Federal teacher quality 
aid, to develop and implement a plan to place a highly 
qualified teacher in every public classroom by the close of the 
2005-2006 school year.
    States have been given vast flexibility in defining what 
constitutes a highly qualified teacher.
    At a minimum, teachers must have full state certification, 
a Bachelor's degree, and demonstrate competency in core 
achievement subjects they teach.
    Individual states, not the Federal Government, design and 
implement measures to assess subject matter competency, which 
may include rigorous state academic tests, a Bachelor's degree 
in a core academic subject, or the high, objective, uniform 
state standard of evaluation, or HOUSSE procedure for veteran 
teachers.
    Since No Child Left Behind was enacted more than 2 years 
ago, Congress and President Bush have continued to provide 
record teacher quality aid to states and local school districts 
at levels far higher than provided under the previous 
administration.
    Federal teacher quality aid has been increased by more than 
35 percent under President Bush, who requested nearly three 
billion dollars in annual teacher quality funding for states 
and teachers in his 2005 budget request to Congress, compared 
with just 787 million dollars provided under President 
Clinton's final budget.
    In addition, President Bush and Congress have taken 
numerous steps since the enactment of the No Child Left Behind 
Act to help teachers, local educational agencies and states 
meet the law's highly qualified teacher provisions.
    To provide incentives for good teachers to remain in the 
teaching profession, President Bush and congressional 
Republicans in 2002 enacted legislation allowing teachers to 
take a $250 tax deduction when they pay money out of their own 
pockets for classroom expenses, such as crayons and books, 
paper, pencils. We're currently working to expand the so-called 
Crayola credit to $400 or more.
    During the 108th Congress, the House passed legislation to 
more than triple the amount of Federal student loan forgiveness 
available to highly qualified reading specialists and math, 
science, and special education teachers who commit to teaching 
in high-need schools for 5 years.
    The Teacher Recruitment and Retention Act would increase 
maximum Federal loan forgiveness for such teachers from $5,000 
to $17,500.
    In 2003, the House also passed legislation to strengthen 
teacher training programs at America's colleges.
    The Ready to Teach Act would reauthorize and strengthen 
teacher training programs under the Higher Education Act to 
ensure tomorrow's highly qualified teachers are prepared to 
meet the needs of the nation's students.
    It's important to note that Members of the Committee 
reintroduced these bills last week as part of a competitiveness 
package aimed at helping teachers receive quality training they 
need to improve student achievement.
    Recognizing that outdated Federal rules are pushing some 
good teachers out of the classroom, the House also passed 
legislation to be revamp the Individuals with Disabilities 
Education Act and reduce paperwork burdens for Special 
Education teachers who are striving to meet the No Child Left 
Behind's high standards.
    This bill includes a proposal to reduce paperwork for 
Special Ed teachers by allowing parents of children with 
special needs to select a 3-year individualized education 
program, or IEP, for their children instead of an annual one.
    Earlier this year the Department of Education provided 
states with new guidance on the highly qualified teacher 
requirements, giving additional flexibility to teachers in 
rural school districts, streamlining procedures for veteran 
teachers to demonstrate subject matter competency, and 
clarifying state authority over requirements for science 
teachers.
    Also, the Department of Education has implemented a new 
outreach initiative to recognize teachers' outstanding 
achievements.
    The four-part initiative includes teacher roundtables, 
teacher-to-teacher workshops, a research-to-practice summit, 
and updates on timely topics affecting teachers.
    Today we're in Arizona to learn about state efforts to 
maintain and improve teacher quality.
    Last November the U.S. Department of Education's Teacher 
Assistance Corps visited Arizona to assist the state Department 
of Education in implementing No Child Left Behind's highly 
qualified teacher requirements.
    The U.S. Department of Education found several positive 
aspects in Arizona's efforts with regard to teacher quality and 
noted that Arizona is planning to use their HOUSSE standards to 
drive content-specific professional development in making 
teachers highly qualified and asks school districts to require 
that professional development be directly linked to student 
achievement.
    I'd like to thank everyone for attending here today, and 
I'd especially like to thank our distinguished panel of 
witnesses for their participation. I look forward to your 
testimony.
    And I'd now like to recognize my colleague on the Education 
Workforce Committee, Mr. Porter, your neighbor to north--I'm 
your neighbor to the west--and ask Mr. Porter for any opening 
statement that he wishes to make at this time.
    [The prepared statement of Mr. McKeon follows:]

  Statement of Hon. Howard ``Buck'' McKeon, Chairman, Subcommittee on 
 21st Century Competitiveness, Committee on Education and the Workforce

    Good morning. I'd like to welcome each of you to our field hearing 
this morning as the Subcommittee continues its focus on teacher 
quality. This will be the fourth hearing since the opening of the 107th 
Congress that we have met to learn about teacher preparation, 
credentials, and ways to ensure our students are learning from capable 
and competent teachers.
    The purpose of today's hearing is to discuss the importance of 
highly qualified teachers in improving academic achievement for all 
students--regardless of race, income, geography, English-fluency, or 
disability.
    The success of education reform efforts is increasingly seen as 
directly dependent on the quality of classroom instruction, and 
ensuring the quality of America's 3.2 million teachers is an essential 
part of providing an excellent education to all our children. A growing 
number of studies provide conclusive evidence that teacher quality is 
the primary school-related factor affecting student achievement. 
Students who are taught by effective and competent teachers excel 
quickly, while those who are assigned to the least effective teachers 
lag behind and often never catch up.
    Especially troubling is the evidence that disadvantaged students, 
whose futures depend most on a positive school experience, are often 
assigned the least qualified teachers. For example, a report from the 
Education Trust--a nonprofit organization whose mission is to make 
schools and colleges work for all of the young people they serve--found 
that in every subject area, students in high-poverty schools were more 
likely than other students to be taught by teachers without even a 
minor in the subjects they teach.
    The bipartisan No Child Left Behind law asks each state--in 
exchange for billions of dollars in federal teacher quality aid--to 
develop and implement a plan to place a highly qualified teacher in 
every public classroom by the close of the 2005-2006 school year. 
States have been given vast flexibility in defining what constitutes a 
highly qualified teacher. At a minimum, teachers must have full state 
certification, a Bachelor's degree, and demonstrate competency in core 
academic subjects they teach. Individual states--not the federal 
government--design and implement measures to assess subject matter 
competency, which may include rigorous state academic tests; a 
Bachelor's degree in a core academic subject; or the high, objective, 
uniform state standard of evaluation--or HOUSSE procedure--for veteran 
teachers.
    Since No Child Left Behind was enacted more than two years ago, 
Congress and President Bush have continued to provide record teacher 
quality aid to states and local school districts, at levels far higher 
than provided under the previous Administration. Federal teacher 
quality aid has been increased by more than 35 percent under President 
Bush, who requested nearly three billion dollars in annual teacher 
quality funding for states and teachers in his 2005 budget request to 
Congress--compared with just $787 million provided under President 
Clinton's final budget.
    In addition, President Bush and Congress have taken numerous steps 
since the enactment of the No Child Left Behind Act to help teachers, 
local educational agencies, and states meet the law's highly qualified 
teacher provisions.
    To provide incentives for good teachers to remain in the teaching 
profession, President Bush and congressional Republicans in 2002 
enacted legislation allowing teachers to take a $250 tax deduction when 
they pay money out of their own pockets for classroom expenses, such as 
crayons and books. We are currently working to expand this so-called 
``Crayola Credit'' to $400 or more.
    During the 108th Congress, the House passed legislation to more 
than triple the amount of federal student loan forgiveness available to 
highly qualified reading specialists and math, science, and special 
education teachers who commit to teaching in high-need schools for five 
years. The Teacher Recruitment and Retention Act would increase maximum 
federal loan forgiveness for such teachers from $5,000 to $17,500.
    In 2003, the House also passed legislation to strengthen teacher-
training programs at America's colleges. The Ready to Teach Act would 
reauthorize and strengthen teacher-training programs under the Higher 
Education Act to ensure tomorrow's highly qualified teachers are 
prepared to meet the needs of the nation's students.
    It is important to note that members of the Committee re-introduced 
these bills last week as part of a competitiveness package aimed at 
helping teachers receive quality training they need to improve student 
achievement.
    Recognizing that outdated federal rules are pushing some good 
teachers out of the classroom, the House also passed legislation to 
revamp the Individuals with Disabilities Education Act and reduce 
paperwork burdens for special education teachers, who are striving to 
meet No Child Left Behind's high standards. This bill includes a 
proposal to reduce paperwork for special education teachers by allowing 
parents of children with special needs to select a three-year 
Individualized Education Program--or IEP--for their children instead of 
an annual one.
    Earlier this year, the Department of Education provided states with 
new guidance on the highly qualified teacher requirements giving 
additional flexibility to teachers in rural school districts; 
streamlining procedures for veteran teachers to demonstrate subject 
matter competency; and clarifying state authority over requirements for 
science teachers. Also, the Department of Education has implemented a 
new outreach initiative to recognize teachers' outstanding 
achievements. The four-part initiative includes teacher roundtables, 
teacher-to-teacher workshops, a research-to-practice summit, and 
updates on timely topics affecting teachers.
    Today we are in Arizona to learn about state efforts to maintain 
and improve teacher quality. Last November, the U.S. Department of 
Education's Teacher Assistance Corps visited Arizona to assist the 
State Department of Education in implementing No Child Left Behind's 
highly qualified teacher requirements. The U.S. Department of Education 
found several positive aspects in Arizona's efforts with regard to 
teacher quality and noted that Arizona is planning to use their HOUSSE 
standards to drive content specific professional development in making 
teachers highly qualified and asks school districts to require that 
professional development be directly linked to student achievement.
    We have a distinguished panel of witnesses for today's hearing. I 
would like to thank each of you for your appearance before the 
Subcommittee and I look forward to your testimony.
                                 ______
                                 

 STATEMENT OF HON. JON C. PORTER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Porter. Thank you, Mr. Chairman.
    My name is John Porter, and I'm a Member of Congress from 
southern Nevada, the Las Vegas area. As they say, what happens 
in Las Vegas stays in Las Vegas.
    But my background is such that I'm fortunate to be married 
to an educator for over 18 years who has since retired. And she 
was an elementary school librarian in a very transient, 
transitional part of southern Nevada.
    So I have the insights of a professional in my wife, but 
also I have spent a lot of time in the schools trying to learn 
just as much as I can to try to make a difference, and having 
been a state legislator before.
    But I guess I state that for the record so you'll know that 
both of us, the Chairman and myself, we have a real passion for 
education.
    And we both realize that without your support, without the 
professionals here today giving us the proper insights to make 
the right decisions, we're not going to be able to make a 
difference. So today's really critical as is your testimony.
    But I guess on a more formal side, as we continue to 
commemorate the 50th anniversary of the U.S. Supreme Court's 
landmark Brown versus Board of Education decision, it's 
important to reflect on how far we have come in ensuring 
educational access for every child.
    But we must also remind ourselves, the task will not be 
finished until every child not only has a seat in the 
classroom, and I can appreciate being a member, as both of us 
are, from the southwest and the challenges of having a seat is 
as much as having the teacher. But until every child has a seat 
but also is guaranteed a quality education, our job's not done.
    50 years later after the 50th anniversary has begun, an 
alarming achievement gap still exists in our country.
    Nationally, African American 4th graders are 28 percentage 
points behind their white counterparts in reading, and Hispanic 
4th graders are 29 percent points behind.
    President Bush's No Child Left Behind Act has given us the 
blueprint we need as a nation to complete the mission. Starting 
with the Brown decision, Brown versus Board of Education and No 
Child Left Behind are partners in history.
    The No Child Left Behind Act is the bipartisan landmark 
education reform law designed to change the culture of 
America's schools by closing the achievement gap, offering more 
flexibility, giving parents more options, and teaching students 
based on what works.
    In exchange for literally billions of dollars in Federal 
aid, states now must describe how they will close the 
achievement gap and make sure all students, including those who 
are disadvantaged, achieve academic proficiency.
    It's interesting, as I listen to debate across the country 
and even at home in Nevada, when we talk about No Child Left 
Behind, it literally has become the whipping post for 
education.
    If local government has chosen not to increase financial 
support, it's the No Child Left Behind's fault. If there's a 
cut in transportation, it's No Child Left Behind's fault.
    Anything that's gone wrong with education, and we certainly 
we have a lot of professionals trying to prevent that, No Child 
Left Behind is blamed.
    And I'll be honest with you. I think that it truly has been 
a milestone and it will be history in the making. Although not 
perfect, it's come a long ways and will continue to improve.
    As we try to create this highly educated workforce that's 
critical to America's future and competitiveness, not only 
nationally but internationally, the quality of education in 
America's schools is directly related to the quality of 
teachers entrusted with the vital task of educating the 
nation's students.
    Today's students are tomorrow's workforce, and for that 
reason, education is directly linked to America's future 
competitiveness in the changing economy.
    Every child deserves to learn from a highly qualified 
teacher. And it's a privilege for me to be here today.
    And as I mentioned earlier, as a Member of Congress from 
the southwest, we do have similar challenges to Arizona.
    We need 2,500 new teachers a year in Nevada, 2000 alone in 
southern Nevada. We need to build two and a half plus new 
schools a month to stay ahead of our growth. We're growing 6-, 
7,000 people a month into the Nevada community, and we have 
very serious challenges from seats, building enough schools, to 
having enough teachers.
    By having said that, an issue that I'm also working on, I'd 
like to just enter for the record, Mr. Chairman. I don't know 
if you're aware of this, but 29 states don't do background 
checks on teachers.
    And I have introduced legislation to make sure that every 
state does background checks.
    And as we're out recruiting every day to find new teachers, 
we're finding that a lot of states don't have the information 
that's necessary to make sure that our students are safe and 
that we're hiring the right teachers.
    So separate and apart from educating and making sure that 
we raise the standards of the professionalism of the teachers, 
we need to get the message out to these other states that they 
also need to do some background checks.
    It's not happening.
    We found in Clark County School District, which is the 
sixth largest in the country, that we were recruiting teachers 
and their background checks were coming up clear.
    And we're finding out later it was clear because it wasn't 
reported, the problems that they were having.
    Legal problems, from pedophilia to other sexual crimes to 
other major crimes, were not being reported into the system.
    I would hope we wouldn't have to pass legislation to 
mandate the background checks, although that's where the bill 
is right now.
    But I know, as a Member of Congress and a prior member of 
the State Legislature, I was shocked to realize that there is 
not background checks being done in 29 of the 50 states.
    So as the Secretary's here today, I'd like to send that 
message. We have to educate our own professionals. So when we 
would check a background through the FBI, which we require on 
every new teacher, literally, their records were coming up 
clear.
    And there's something wrong with that when we're entrusted 
not only with hiring not only the best and brightest and highly 
trained professionals.
    We have to make sure that as parents entrust their children 
with us that these teachers also haven't had other problems. So 
I add that for the record and share that with my friends and 
colleagues here in Arizona.
    Anyway, with that, I'm excited to be here.
    And I'll tell you, I have heard education compared to the 
medical profession in that, if you were to look at an emergency 
room hospital in the late 1800's and look at the emergency room 
today, you'd see a remarkable difference.
    Technology, training, skills, everything has changed from 
the safety of the patient to the safety of the doctors and 
nurses.
    But if you looked at the classroom, it's basically the same 
way it's been for over 100 years. And there certainly is a time 
and a place for that.
    But I think we need to continue fostering meetings like 
this so we can learn how to improve education across the 
country and make sure that our classroom doesn't look like it 
did 100 years ago because the world doesn't look like it did 
100 years ago.
    And that's another reason why where we're here today.
    So thank you very much, Mr. Chairman. Appreciate it.
    [The prepared statement of Mr. Porter follows:]

  Statement of Hon. Jon Porter, a Representative in Congress from the 
                            State of Nevada

    As we continue to commemorate the 50th anniversary of the U.S. 
Supreme Court's landmark Brown v. Board of Education decision, it's 
important to reflect on how far we've come in ensuring educational 
access for every child. But we must also remind ourselves the task will 
not be finished until every child not only has a seat in the classroom, 
but is guaranteed a quality education as well.
    Fifty years later, an alarming achievement gap still exists in our 
country. Nationally, African American fourth graders are 28 percentage 
points behind their white counterparts in reading, and Hispanic fourth 
graders are 29 percentage points behind.
    President Bush's No Child Left Behind Act has given us the 
blueprint we need as a nation to complete the mission started with the 
Brown decision. Brown v. Board of Education and No Child Left Behind 
are partners in history.
    The No Child Left Behind Act is the bipartisan landmark education 
reform law designed to change the culture of America's schools by 
closing the achievement gap, offering more flexibility, giving parents 
more options and teaching students based on what works. In exchange for 
billions of dollars in federal aid, states now must describe how they 
will close the achievement gap and make sure all students, including 
those who are disadvantaged, achieve academic proficiency.
    A highly-educated workforce is critical to America's future 
competitiveness. And the quality of education in America's schools is 
directly related to the quality of the teachers entrusted with the 
vital task of educating the nation's students. Today's students are 
tomorrow's workforce, and for that reason education is directly linked 
to America's future competitiveness in a changing economy.
    Every child deserves to learn from a highly qualified teacher and 
it is a privilege for me to be here today to learn about the steps 
Arizona is taking to ensure their children receive a world-class 
education.
    I look forward to your testimony.
                                 ______
                                 
    Chairman McKeon. Thank you. I'm especially happy to be here 
in Arizona because I have four grandchildren in public schools 
here. They live in Mesa. And we have 26 grandchildren. So 
school education is very, very important in our family.
    Let me introduce our witnesses.
    We will begin first by hearing from Mr. Raymond Simon.
    Mr. Simon currently serves as the Assistant Secretary in 
the Office of Elementary and Secondary Education at the U.S. 
Department of Education in Washington.
    Mr. Simon has served in numerous capacities since beginning 
his career as a mathematics teacher at North Little Rock High 
School. Mr. Simon has served as Superintendent for Conway 
Public Schools in Conway and also as Director of the Arkansas 
Department of Education.
    So he knows what it's like in the classroom; he knows what 
it's like in the superintendent's office; and now he sees what 
it's like in Washington, D.C..
    And he's still smiling. That's great.
    Dr. Karen Butterfield currently serves as the Deputy 
Associate Superintendent in the Innovative and Exemplary 
Programs for the Arizona Department of Education in Phoenix, 
Arizona. Previously Dr. Butterfield served as Program Manager 
for the National Charter Schools Institute.
    I was here years ago. We did a hearing here on charter 
schools. You're setting a great pace for the rest of the 
country. But that was in Mount Pleasant, Michigan.
    In 2003, Dr. Butterfield was recognized by the Arizona 
North Central Association for her work, receiving the Circle of 
Excellence Award.
    Then we will hear from Dr. Laura Palmer Noone.
    Dr. Noone currently serves as President of the University 
of Phoenix, which is where we are, and has served in this 
capacity since September of 2000.
    Previously Dr. Noone served as Provost and Senior Vice 
President for Academic Affairs and as Director of Academic 
Affairs at the University of Phoenix.
    Before joining the University of Phoenix system, Dr. Noone 
served as Judge Pro Tem at the city of Chandler and also as an 
attorney at law in general civil practice emphasizing business 
representation in civil litigation.
    And finally, Dr. Lewis C. Solmon.
    Dr. Solmon currently serves as the Executive Vice President 
and Director of Teacher Advancement Programs for the Milken 
Family Foundation in Santa Monica, California.
    Before founding the Milken Institute in 1991, Dr. Solmon 
served as Dean of UCLA's Graduate School of Education.
    Dr. Solmon has also advised several Governors and state 
superintendents in the area of teacher quality--wonderful job--
funding school technology and school finance.
    Did the Governors always listen to you?
    Dr. Solmon. Most of them actually did.
    Chairman McKeon. That's great. Before the panel begins, I'd 
like to ask each of our witnesses today to please limit your 
statements to 5 minutes.
    We can be flexible on that. We don't have, like in 
Washington where we have that seat that falls out from under 
you, we don't have that here.
    But your full record, your full comments will be included 
in the record.
    We'll hear now from Mr. Simon.

  STATEMENT OF RAYMOND SIMON, ASSISTANT SECRETARY, OFFICE OF 
    ELEMENTARY AND SECONDARY EDUCATION, U.S. DEPARTMENT OF 
                           EDUCATION

    Mr. Simon. Thank you, Mr. Chairman. One reason I'm smiling 
is that you gave, between you and Mr. Porter, you gave about 90 
percent of my prepared remarks. And we agreed.
    Chairman McKeon. I have heard that somebody that hears 
something six times and learns it is a genius, so maybe we need 
to hear it several times.
    Mr. Simon. Well, I think I'm in the presence of genius. So 
I'll try to only pick out the parts that will elaborate on what 
you and Mr. Porter have already said.
    I think this component, the highly qualified teacher 
component of No Child Left Behind will prove to be the most 
challenging of all the aspects of the law to implement.
    In addition, too, we're at a time when, as you've 
mentioned, there is a growing need for new teachers to join the 
profession.
    We're seeing teachers of my generation retiring in record 
numbers at a time when we're demanding more, rightfully so, in 
terms of qualifications of teachers in our classrooms.
    The research that you referenced also says that teacher 
success is enhanced by a combination of teaching experience and 
a strong content knowledge, something we must continue to 
insist on in helping our teachers not only with how to teach 
but in the content area that they are teaching.
    Last fall, as we began to receive from the states their 
reports on the numbers and percentages of highly qualified 
teachers, we found rather startling information.
    As is often the case with something new, the data had a few 
holes. Some states had made a good-faith effort and had 
submitted reasonably accurate information.
    Some were still working on their definitions of highly 
qualified teachers and their data reflected that uncertainty.
    Some states simply did not submit any information because 
of limitations in their data collection system.
    Nevertheless, on the whole, the 2003 state data on highly 
qualified teachers suggests how far we have to go to comply 
with No Child Left Behind.
    Some states appear to be in good shape with 90 percent or 
more of their teachers already highly qualified.
    Others face a much bigger challenge, reporting less than 
half of their teachers meeting the same requirements.
    Some states reporting high percentages of highly qualified 
teachers may not have been using a definition that meets 
statutory requirements.
    Last September, in partial response to that and at the 
urging of Secretary Rod Paige, the Department formed its 
Teacher Assistance Corps which, on it, included teachers, 
principals, superintendents, higher education staff, State 
officials and national education experts that visited all 50 
states, the District of Columbia, Puerto Rico, and conducted 
what we call conversation without consequences.
    In Arkansas we refer to that as deer camp conversation. 
Whatever was said there stayed there.
    After 300 hours of site visits, we found much confusion, 
inconsistency about what the law requires and what states need 
to do to comply.
    Veteran teachers incorrectly had been convinced that they 
had to go back to school to get multiple degrees in order to be 
highly qualified or to take tests to prove their 
qualifications.
    Highly honored professionals suddenly found themselves, as 
a result of either misinformation or lack of action on the part 
of states to develop proper guidelines, to find themselves not 
highly qualified.
    As a result of our conversation without consequences, many 
states began to rethink how their teachers are assigned and 
what their definitions of highly qualified would be.
    Since that time, we found that more states are getting 
serious about aligning certification standards with content 
standards for children.
    More states are raising academic standards for teachers, 
realizing how important a well-prepared teacher is. And many 
are lowering barriers to alternate certification programs that 
encourage talented, qualified individuals in other careers to 
become teachers.
    Beginning this summer, the department will begin formal 
monitoring of states and go back now in a formal way and 
continue with the discussions we had last fall, and also to 
provide technical assistance to schools and states to make sure 
they are on the right track to meet the requirements.
    Most importantly, we're going to look at how states are 
collecting data and how they are spending their Title II funds.
    I'll close my remarks on a personal note.
    You mentioned you had 26 grandchildren. I have one that's 2 
years old. His name's Alex.
    And when Alex begins kindergarten in 3 years, as a 
granddad, I don't want it to be the luck of the draw as to 
whether or not Alex gets a good teacher.
    And I sure don't want it to be the luck of the draw that 
Alex gets three poor teachers 3 years in a row, because if he 
does, the chances of Alex graduating from high school are 
pretty slim.
    He deserves better than that. So do his buddies.
    No Child Left Behind, in my mind, and I have spent--I'll 
finish 38 years in public education. I have never known a time 
when the opportunities were as great on a national level to 
help as many children as we have now.
    Now is not the time to provide excuses. It's not the time 
to abandon No Child Left Behind. It's a time to stay the 
course.
    This summer, as you indicated, we're going to spotlight 
teachers all over this country that are doing what others say 
can't be done. We're going to give those teachers and 
principals an opportunity to say, here's how I'm doing it; you 
can do it.
    That's all teachers want. We have heard from many, many 
teachers over the last few weeks and months.
    And they say, you know, we want to do this. Some of us 
don't believe we can because we don't know how, but we want to 
do what's best for these children and we want the mission of No 
Child to be successful. So any help the Department of Education 
can give us, that's what we're looking for.
    That's a pretty powerful statement.
    We have to honor good teaching. There are millions of great 
teachers in this country. No Child Left Behind has an 
opportunity to take that individual greatness of those teachers 
and channel it in one direction and make the whole greatness 
bigger than the sum of the parts.
    I'm very proud to be a part of that.
    That concludes my remarks. And I'd be happy to answer 
questions at the appropriate time.
    Chairman McKeon. Thank you, Mr. Secretary.
    [The prepared statement of Mr. Simon follows:]

 Statement of Raymond Simon, Assistant Secretary, Office of Elementary 
         and Secondary Education, U.S. Department of Education

    Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity to testify today on the importance 
of teaching. Improving the quality of instruction and, more 
specifically, putting a highly qualified teacher in every classroom, 
may well be the key to the success of the No Child Left Behind Act 
(NCLB). That makes teaching a core concern for this Administration, as 
I know it is for the Chairman and members of this Committee.
    The reason is simple. Research shows what most of us know from 
personal experience: a talented teacher has a tremendous impact on 
student achievement. In particular, we know that a combination of 
teaching experience and strong content knowledge are linked to gains in 
student achievement. Although we know it is important for teachers to 
have a solid grasp of the content they teach, out-of-field teaching 
remains a significant problem. Historically, qualified math and science 
teachers are more difficult to hire than English or social studies 
teachers, but out-of-field teaching is just as prevalent in English and 
social studies as it is in math and science classes. To illustrate 
this, one-fifth of 7th-12th graders in the United States will have an 
English teacher who does not have even a minor in the subject.
    We also know that inexperienced or unqualified teachers tend to be 
concentrated in the high-poverty schools that face the greatest 
challenges in helping all students reach high State standards. And 
finally, we know that teaching is a tough job, because nearly one-
quarter of all new teachers leave the profession during their first 
three years of service.
WHAT THE LAW REQUIRES
    The requirements of the No Child Left Behind Act concerning highly 
qualified teachers were designed to address each of these issues in 
teaching. NCLB requires a highly qualified teacher in every classroom 
for core academic subjects, so that all kids have the opportunity to 
achieve at grade level. States must report on the percentage of classes 
not taught by highly qualified teachers, both overall and disaggregated 
by high-poverty and low-poverty schools, so that we know whether or not 
the students with the greatest needs are getting teachers who can meet 
those needs. And we believe that highly qualified teachers are likely 
to remain in the profession longer than those who are unprepared for 
the challenges of teaching.
    No Child Left Behind requires that every public elementary and 
secondary school teacher of a core academic subject hold a minimum of a 
bachelor's degree, obtain full State certification or licensure, and 
demonstrate subject matter competency in each of the academic subjects 
taught; however, States are provided the flexibility to develop 
procedures that conform to these three criteria.
    Additionally, all new teachers hired to teach core academic 
subjects in Title I programs must meet these requirements now, and all 
other teachers of core subjects must be highly qualified by the end of 
the 2005-2006 school year.
    Arizona is striving to meet these requirements. Your State 
Department of Education recently gave districts and schools guidance on 
the qualifications teachers need to have. They also have developed a 
HOUSSE, which is short for ``high objective uniform State standard of 
evaluation,'' a procedure NCLB authorizes which allows veteran teachers 
to demonstrate that they know their subject matter without having to 
take a test or go back to school.
WHERE STATES CURRENTLY STAND
    Last fall States submitted data for the first time on the numbers 
and percentages of their teachers who are highly qualified. As is often 
the case with something that is new, the data provided had a few holes. 
Some States made a good faith effort and submitted reasonably accurate 
information. Some States were still working on their definitions of 
highly qualified teachers, and their data reflected that uncertainty. 
And some States simply did not submit any data on highly qualified 
teachers, in part because of limitations in their current data-
collection systems.
    Nevertheless, on the whole the 2003 State data on highly qualified 
teachers suggest how far we have to go to comply with No Child Left 
Behind. Some States appear to be in good shape, with 90 percent or more 
of their teachers already highly qualified. Other States face a much 
bigger challenge, reporting less than half of their teachers meeting 
the highly qualified standard. Moreover, some of the States reporting 
high percentages of highly qualified teachers may not have been using a 
definition that meets statutory requirements.
    I think it is important to recognize that last fall's data served 
as a ``wake-up'' call for everyone involved, both at the State and 
local levels and here in Washington as well. There is a lot of work to 
be done over the next two years.
THE U.S. DEPARTMENT OF EDUCATION'S TEACHER ASSISTANCE CORPS
    Secretary Rod Paige recognized the challenge every State would face 
in meeting these requirements. To assist States in their efforts, last 
summer he formed the Teacher Assistance Corps (TAC) to support State's 
hard work in meet the highly qualified teacher requirements.
    The Teacher Assistance Corps includes 45 teachers, former teachers, 
principals, superintendents, leaders from higher education, State 
officials, and national experts from around the country. Following 
training and assignment to teams that included U.S. Department staff, 
the Corps began visiting States in September 2003. During these 
``conversations without consequences,'' team members explained the 
highly qualified teacher requirements and answered policy questions. 
Just as important, the visits provided an opportunity to listen and 
learn with TAC teams hearing about innovative State and local 
professional development initiatives as well as unique local conditions 
affecting the recruitment and training of highly qualified teachers.
    Teacher Assistance Corps teams have visited all 50 States, the 
District of Columbia, and Puerto Rico. They met with the Arizona 
Department of Education last November, answering questions and learning 
about how your State is working toward meeting the requirements. The 
Corps is available to provide additional assistance to Arizona through 
follow-up visits, conference calls, and regional and national meetings, 
if your State so desires.
NEW FLEXIBILITY FOR STATES AND SCHOOL DISTRICTS
    A common set of concerns emerged from the Teacher Assistance Corps 
visits. For example, many rural districts must employ teachers who are 
assigned to teach multiple subjects, and thus face the challenge of 
meeting the highly qualified teacher requirements for each subject. 
Many middle school teachers have elementary or secondary certification, 
but lack specific middle school qualifications. And States continue to 
face shortages teachers of special education and in key subject areas 
like science.
    To help States and school districts meet these and other challenges 
in complying with the highly qualified teacher requirements of No Child 
Left Behind, on March 15 the Secretary issued new guidance that both 
clarified existing flexibility and provided additional flexibility to 
meet these requirements.
    One key change affects 100 districts in Arizona that are defined as 
small and rural under Title VI of No Child Left Behind. These districts 
will be allowed to provisionally employ middle or secondary school 
teachers to teach multiple subjects even if they do not meet all the 
criteria for a highly qualified teacher in each of the subjects they 
teach. Districts are eligible for this flexibility as long as they are 
providing intensive supervision and professional development that will 
enable these teachers to become highly qualified in the additional 
subjects over a three-year period.
    The new flexibility also changed current Department guidance 
regarding qualifications for science teachers. Arizona now has the 
option of having science teachers demonstrate subject matter competence 
either in specific fields of science or in general science, depending 
on State certification or licensure requirements.
    The Department also clarified that since States have the authority 
to define grade spans, they may determine the highly qualified teacher 
requirements that teachers must meet at the elementary, middle, and 
high school levels. Other areas covered by the new guidance include the 
use of a High, Objective, Uniform State Standard of Evaluation (HOUSSE) 
for veteran teachers, requirements for special education teachers, and 
improved data collection and monitoring procedures.
MONITORING
    This summer, the Department will follow up on the technical 
assistance provided through the Teacher Assistance Corps by monitoring 
State processes used to determine the highly qualified status of 
teachers. We also will look at how States are collecting data on 
teachers, how they are spending their Title II funds and provide 
technical assistance if needed. The 2005-2006 deadline is fast 
approaching, and the U.S. Department of Education is committed to 
monitoring every State prior to the deadline, to ensure States are 
meeting the highly qualified teacher requirements in the law.
TWO PRINCIPLES FOR MEETING HIGHLY QUALIFIED TEACHER REQUIREMENTS
    In addition to the Teacher Assistance Corps and more flexible 
guidance, the Department is promoting two key principles to help States 
and school districts meet the highly qualified teacher requirements. 
First, we must raise academic standards for teachers. This is an 
explicit requirement of the law, which reflects research findings on 
the critical importance of subject matter knowledge for effective 
teaching. One way to raise standards is to improve traditional teacher 
preparation programs so that they serve as a more reliable source of 
highly qualified and well-prepared new teachers.
    For example, the Arizona Department of Education is currently 
working with colleges and universities in the state to have uniform 
standards and increase the amount of time spent in the classroom by 
student teachers.
    Second, we must lower the barriers that keep many talented people 
from entering the teaching profession. The law is silent on 
certification requirements, opening the door to new thinking at the 
State level about certification systems. In particular, Arizona can 
streamline the process and create alternative routes that will 
encourage talented, qualified individuals now in other careers or jobs 
to become teachers. Your State Board is currently considering adding a 
new route to certification that would allow individuals with a 
bachelor's degree in a subject to bypass the education coursework, and 
participate in a three year induction/mentoring program.
    Another example of innovative flexibility is the Adjunct Teacher 
Corps initiative included in the President's 2005 budget request. This 
$40 million proposal would help create arrangements for utilizing well-
qualified individuals from business, technology, industry, and other 
areas as teachers in secondary schools on an adjunct basis.
THE PRESIDENTS 2005 BUDGET REQUEST
    The President's 2005 budget request, like his earlier budgets, 
would provide significant support for State and local efforts to ensure 
that all teachers are highly qualified by the end of the 2005-2006 
school year.
    The key Federal programs that provide flexible resources for 
teacher training are NCLB's Title II Improving Teacher Quality State 
Grants and Title I Grants to Local Educational Agencies program, along 
with the Higher Education Act's Title II Teacher Quality Enhancement 
grants. Combined with smaller categorical programs that support 
professional development, along with benefits for individual teachers 
under Loan Forgiveness and tax provisions, the request would provide a 
total of more than $5 billion to help States and school districts 
improve the quality of their teaching forces.
CONCLUSION
    As I said at the outset of my testimony, meeting the highly 
qualified teacher requirements of No Child Left Behind will be central 
to the success of the new law. I believe the law has already 
accomplished a great deal simply by focusing so much attention on the 
importance of putting a highly qualified teacher in every classroom. As 
is the case with implementing the rest of No Child Left Behind, the 
Department is working in partnership with Arizona both through guidance 
and technical assistance and through significant financial support--to 
move from requirement to reality in ensuring that all teachers are 
highly qualified.
    I would be happy to answer any questions you may have.
                                 ______
                                 
    Chairman McKeon. Dr. Butterfield.

     STATEMENT OF DR. KAREN BUTTERFIELD, DEPUTY ASSOCIATE 
   SUPERINTENDENT, INNOVATIVE & EXEMPLARY PROGRAMS, ARIZONA 
                    DEPARTMENT OF EDUCATION

    Dr. Butterfield. Good morning, Chairman McKeon, 
Representative Porter.
    It is a true pleasure and honor to be sitting next to the 
Assistant Secretary and with our other distinguished testifiers 
this morning on what Arizona is doing to ensure we have highly 
qualified teachers in our classrooms and the direction that we 
have headed in implementing the Title II, No Child Left Behind 
requirements.
    I would like to open up my remarks with a quote from 
Superintendent Tom Horne in a recent Board of Regents meeting 
regarding teacher quality.
    "We are determined that 100 percent of the students will 
become proficient in reading and mathematics and will reach 
their potential in all academic areas in our state.
    "The most important factor to reaching these goals is 
highly qualified teachers.''
    Throughout this testimony I will interweave the important 
elements of conditions needed in order to truly have and 
support highly qualified teacher efforts.
    I'm an art educator at heart. I began my career as an art 
teacher. So I'd like to use the metaphor of creating a weaving. 
The warp is the actual base of threads that become the 
foundation of the actual weaving itself.
    We cannot implement or foster highly qualified teachers 
without certain things in place. And so I'll be addressing that 
warp, those elements, throughout my testimony.
    I'll be including five major initiatives of the State of 
Arizona and particularly the Arizona Department of Education 
has embarked on in improving teacher quality.
    These five include Arizona's highly qualified teacher 
requirements which I will not go into detail in this testimony. 
You have the rubric, the House rubric in your packet as well as 
the checklist that ensures we have highly qualified teachers in 
our classrooms.
    Secondly, recommendations from the Arizona Department of 
Education Certification Task Force.
    Three, possible implementation of a statewide teacher 
induction and mentoring program.
    Four, Arizona's commitment to teacher professional growth 
and development. And I'd like to highlight the successes of our 
Arizona Professional Development Learning Academy and our 
Reading First Initiative.
    And last, our commitment to develop data elements, just 
what Chairman McKeon, you have stated in your opening remarks, 
the need to tie teacher quality to student achievement.
    In beginning with Arizona's highly qualified teacher 
requirements, I want you to know that I am representing the 
hard work of Deputy Associate Superintendent of Title II, Kathy 
Wiebke, regarding her work with developing that checklist and 
the House rubric with a task force of teachers and educators 
from across the state.
    This rubric has been a true help to our teachers and having 
them check off, am I highly qualified or not?
    If I'm not, what do I have to do to reach those 
qualifications?
    Secondly, it's become a great tool for our rural teachers 
who are struggling in this state to become highly qualified.
    And I want you to know, they are truly grateful for the 
extended grant that has been allocated to them to become highly 
qualified over the next couple of years.
    And Ms. Wiebke's letter that is addressing these 
requirements is in your packet under Attachment C.
    She highlights that teachers with an in-depth knowledge of 
content are better able to make critical instructional 
decisions that high quality teaching and learning demand.
    And the Arizona Department of Education continues to work 
very closely with our three state's regent universities and 
colleges of education in the spirit of the aforementioned text.
    As research conducted by Wilson, Floden and Ferrini-Mundy 
conclude, that in addition to subject matter knowledge and 
communication skills, enthusiasm, flexibility, perseverance and 
rapport with students create the overall formula for teacher 
effectiveness in addition to the vital combination of state 
licensure process, teachers' professional knowledge and 
experience.
    Secondly, in terms of recommendations from the Arizona 
Department of Education Certification Task Force, I'd like to 
highlight two of approximately five that the task force is 
submitting currently to the State Board of Education.
    In order to provide enhanced opportunities for our 
teachers, we are looking at or the task force is looking at, 
instead of requiring the 180 hours of the disparate and often 
unconnected activity of providing professional development, we, 
the task force, is looking at a more job-embedded staff 
development plan for our state's teachers.
    It would still require the 180 hours, but that plan would 
focus on six critical elements: Professional areas for growth, 
professional growth goals, an action plan step, a time line, 
the resources these teachers would need to fulfill their job-
embedded professional development plans, and the anticipated 
impact as well as the results of the plan.
    And in order to remove barriers of highly qualified 
teachers who move here from out of state to teach--I don't know 
if they are going to Nevada, Representative Porter, but we have 
got an issue here where we need to retain our highly qualified 
teachers in Arizona.
    Arizona is working very, very hard to improve teacher 
quality, and our teachers are very dedicated to their roles in 
their classrooms and to their profession.
    And the State Department of Education is strongly committed 
to servicing them.
    We have two major challenges I would like to highlight for 
the record.
    One. We have a migration of teachers leaving this state to 
seek higher pay. That has got to change. That's a condition in 
the warp that we need to strengthen the color of the weaving.
    Two, the reality of revolving doors unfortunately exists 
here, particularly in our rural schools and unfortunately in 
many of our under-performing schools.
    By revolving door, I mean the administrators and teachers 
are just not staying long enough to provide consistency in the 
classroom, consistency in providing quality.
    I would like to, third, highlight the development, in order 
to address these last two challenges, with a discussion we are 
seriously having with implementing a statewide teacher 
induction and mentor program.
    The induction would be the process. The mentoring would be 
the action. And we all know that research states how important 
the role of the mentor is in enhancing teacher quality.
    It is our desire to create a system that will support our 
state's teachers in both our urban, suburban as well as remote 
rural areas of the state.
    Children can thrive and make significant gains if this 
warp, part of the warp is in place.
    One condition needed for successful implementation of 
research-based practices in the classroom is providing high 
quality staff development.
    And I'd like to share with you quickly two areas that 
Arizona has embarked on that are demonstrating results and 
focusing on our commitment to teacher professional growth and 
development.
    One is the Arizona Professional Development Leadership 
Academy which now is recognized as one of the best staff 
development programs in the state. The PDLA now consists of 24 
teams representing over 300 educators and is growing at a fast 
rate.
    And I have also included in your packets information on the 
PDLA as well as our upcoming June PDLA Summit.
    With Federal funds, we are able to help increase our 
capacity at the state level to help schools develop their 
capacity for effective professional staff development. And the 
PDLA focuses on three major components.
    One, implementing the National Staff Development Council 
Standards of staff development; two, demonstrating and teaching 
them about models of professional development; and third, 
showcasing how they can evaluate. It is so important to 
evaluate: Is it working or not?
    And that, again, is in Attachment D for you.
    Our Reading First Initiative is a highly successful program 
that is training teachers to teach reading with effective 
research-based strategies.
    And again, part of the foundation of the warp is, we are 
providing the infrastructure for this to be successful in the 
schools that need it the most.
    This consists of identifying highly qualified teachers of 
reading who are on loan from ADE to school districts.
    These highly qualified reading specialists are housed at 
each of our 15 county superintendent offices providing outreach 
and technical assistance to our very large, diverse state.
    This is helping us close the achievement gap between 
research and practice and provide professional development that 
is consistent in quality while, most importantly, helping make 
these rich opportunities locally accessible.
    I would also like to add that recently we partnered with 
the U.S. Department of Education and hosted our first High 
School Reform Summit. I was the team leader for that summit. 
And to the table came some of our most outstanding teachers and 
principals.
    And I want this on the record, that they begged, please do 
not let us go backwards. We are working hard at implementing No 
Child Left Behind. We have seen a difference in how our 
teachers are teaching, raising the bars of expectation with our 
curriculum, and we're seeing results.
    So we want to see those high standards of accountability 
continue.
    But second, tied to reading first, they are craving and are 
in great need of scientifically based secondary literacy 
strategies. And so our convening summit which we're going to 
hold this July will be focusing on that arena.
    And in order to keep all children ahead versus behind, we 
must keep the continuum of improved student successes going.
    So strong capacity-building staff development is greatly 
needed, and we ask Congress for its assistance in continuing 
those funds to our states.
    And last, I would like to share with you that we are 
looking into value assessment, value tracked tied to teacher 
quality and student achievement.
    Implementing a value-added system, as the research shows in 
Tennessee and other states, by establishing individual teacher 
identifiers tied to student achievement, works and helps us see 
which teachers are doing what and what they are doing is 
working.
    It also helps us to identify what types of professional 
staff development are the most effective as well as which 
training and professional learning opportunities help our 
teachers grow.
    Teachers have the biggest impact on student achievement. We 
all know that.
    Most of us, I'm assuming, are parents, grandparents. We all 
know which teachers we wanted our children to have. I've got a 
daughter still in high school. I know which teachers I want her 
to have and why.
    Teacher quality is critical. And overall, the teachers, 
especially the teachers in Arizona, support these measures of 
No Child Left Behind and recognize the growth students make 
through their teaching. They want this accountability.
    In closing, teachers are our fundamental resource in 
education, but we're not treating them that way.
    We're putting so much focus on the student and student 
achievement. It's really, what is happening with the quality of 
teachers in our classroom.
    We need to be taking a look at high quality teacher 
preparation, high quality teacher recruitment, high quality 
teacher retention by supporting them with high quality 
resources and staff development embedded in rich, evidenced-
based practice. That's the warp.
    Then we must celebrate our teachers' successes by honoring 
their achievements and disseminating their exemplary practices. 
That is an element that is missing in our school system.
    I would like to close with a quote from Michael Fullan. And 
I believe this is the path that the Arizona Department of 
Education and art educators are on, the path in this state in 
meeting highly qualified teacher requirements.
    "Sustained success is never just one special event, meeting 
or activity. Rather, it is a journey, a journey of recursive 
decisions and actions.''
    Thank you very much.
    Chairman McKeon. Thank you.
    [The prepared statement of Dr. Butterfield follows:]

Statement of Karen Butterfield, Ed.D., Deputy Associate Superintendent, 
                    Arizona Department of Education

    Good morning, Chairman Boehner and Education and The Workforce 
committee members. Thank you for the opportunity to testify on the need 
for NCLB highly qualified teacher requirements, and provide you with a 
``picture'' as to how Arizona is ensuring teachers have adequate 
subject matter knowledge for the subjects they teach.
    As a former teacher for 22 years, a charter founder and 
administrator for 5 years, and currently in a leadership role with the 
Arizona Department of Education overseeing innovative and exemplary 
programs, I can first testify on the imperativeness of the need to have 
highly qualified teachers in our classrooms. Throughout my professional 
career, as well as continuing to serve in the critical role as parent, 
the same theme keeps reoccurring: Teacher expertise is a determining 
factor in enhancing improved student achievement and overall school 
success. Arizona's Superintendent of Public Instruction, Tom Horne, is 
a strong advocate regarding the need for quality teaching and learning 
in our classrooms through his new initiatives, which foster: ``Better 
Teachers, Better Curriculum, Better Schools''. In his presentation at a 
Board of Regents meeting, he is on record as stating,
        ``We are determined that 100% of the students will become 
        proficient in reading and mathematics and will reach their 
        potential in all of the academic areas. The most important 
        factor to reach these goals is highly qualified teachers''. 
        (August 14, 2003).
    Throughout this testimony, the important element of ``conditions 
needed'' is interwoven, as implementing many of these goals involve the 
complexities and challenges of fostering systemic change in our 
schools.
    I would like to highlight the accomplishments of our state in the 
highly qualified teacher arena, focusing on five major initiatives that 
are ensuring we have highly qualified teachers in our state's public 
schools.
        1)  Arizona's Highly Qualified Teacher Requirements, reflective 
        of NCLB
        2)  Two Recommendations from the Arizona Department of 
        Education's Certification Task Force
        3)  Possible Implementation of a State-wide Teacher Induction 
        and Mentoring Program
        4)  Arizona's Commitment to Teacher Professional Growth and 
        Development:
              a.  Arizona Professional Development Learning Academy (AZ 
            PDLA)
              b.  Reading First Initiative
        5)  Arizona's Commitment to Develop Data Elements: tied to 
        tracking teacher quality and student achievement

1) Arizona's Highly Qualified Teacher Requirements, reflective of NCLB:
    Through the leadership of ADE's Deputy Associate Superintendent of 
Highly Qualified Teachers, Kathy Wiebke, Arizona teachers have been 
provided the checklist for Arizona Highly Qualified Teachers 
(Attachment A), as mandated by P.L.107-110/NCLB). This document 
outlines the requirements as of follows:
        1)  Hold a bachelor's degree
                 AND
        2)  Hold a valid state certificate (charters are exempt from 
        this requirement)
        3)  Currently teach, and have passed a rigorous content State 
        academic subject matter test (AEPA Professional Knowledge Test 
        and the Subject Knowledge Test in the content area currently 
        teaching, OR hold an advanced degree in one's content area, OR 
        hold National Board Certification in the area in which one is 
        currently teaching, or for Middle/High School levels only: 24 
        hours in content area).
    If a teacher checks 1,2, and 3, h/she is considered highly 
qualified. If items under ``3'' were not marked, then the HOUSSE rubric 
must be completed to verify that existing qualifications meet the NCLB 
requirements (Reference Attachment B).
    This rubric was developed through a task force comprised of 
stakeholders from across the state, based upon Superintendent Horne's 
request: that this task force work with schools and districts to meet 
the federal guidelines, while simultaneously, making the process as 
inclusive as possible. The rubric has been instrumental in not only 
promoting teacher self-reflection, but also serving as a tool for our 
rural teachers, who are also grateful for having extended time to 
demonstrate competence in additional subjects they teach, through the 
new flexible policy recently established by the U.S. Department of 
Education. As referenced in Ms. Wiebke's 5/17/04 letter to LEAs 
(Attachment C):
        ``We want teachers who teach Arizona's children to have the 
        necessary depth of knowledge to help children develop deep and 
        meaningful understandings. Children are inspired to learn by 
        teachers who are passionate about the content and who engage 
        their students in active inquiry and exploration. Teachers with 
        an in-depth knowledge of content are better able to make the 
        critical instructional decisions that high quality teaching and 
        learning demand''.
    The Arizona Department of Education continues to work closely with 
our state's regent universities and colleges of education in the spirit 
of the aforementioned text. Research conducted by Wilson, Floden and 
Ferrini-Mundy conclude, for example, that in addition to subject matter 
knowledge and communication skills--enthusiasm, flexibility, 
perseverance and rapport with students--create the overall formula for 
teacher effectiveness in addition to the vital combination of state 
licensure process, teachers' professional knowledge and experience.

2) Two Recommendations of the Arizona Department of Education's 
        Certification Task Force:
    The Arizona Department of Education's Certification Task Force, 
comprised of 71 members from across the state, has also been addressing 
a variety of issues tied to teacher quality and certification. It needs 
to be emphasized in today's testimony that these are strictly drafted 
recommendations, and have yet to be approved by our state board of 
education. Two issues currently being reviewed include certificate 
renewal and reciprocity .
    Enhanced opportunities for teachers and administrators to engage in 
reflection on their own professional development is one possible 
recommendation of this task force under certification renewal. Instead 
of requiring the current 180 hours of disparate and unconnected 
activity, one's professional development plan would be more ``job-
embedded'', with the professional development plan possibly designated 
by the educator's LEA or ADE. This suggested plan, which would still 
include the 180 required hours, would focus on:
    <bullet>  Professional areas for growth
    <bullet>  Professional Growth goals
    <bullet>  Action plan steps
    <bullet>  Timeline
    <bullet>  Resources
    <bullet>  Anticipated impact/results plan review
    In order to help remove barriers of highly qualified teachers who 
move here from out-of-state to teach, it is critical to address issues 
of reciprocity under the large certification process umbrella.
    Reciprocity recommendations for certified out-of-state teacher 
applicants would vary, depending on candidates who have less than 3 
years of teaching experience and those who have 3 or more years 
regarding whether or not the subject knowledge test would be waived. A 
bachelor's degree from an accredited institution, valid fingerprint 
clearance card and current out-of-state teaching certificate at the 
equivalent level would remain required, including passing the AZ/US 
Constitution tests.
    Arizona is working very hard to improve teacher quality; our 
teachers are dedicated to their roles in our classrooms and to their 
profession, and the Arizona Department of Education is strongly 
committed to serving them. We are making great strides in Arizona 
regarding strengthening teacher quality, but, we still have much work 
to do in addressing challenges unique to our state. Two such challenges 
are as follows:
    1)  The migration of teachers leaving this state to seek higher 
pay: According to the AFT, Arizona ranks 33rd for average teacher 
salaries ($38,510). This is one condition that must change if we are to 
recruit, reward and retain our most qualified and successful teachers.
    2)  The reality of ``revolving doors'', reflective of both 
administrators and teachers, in our most rural--and, in most cases, 
also in our underperforming schools. We are taking steps to address 
this specific challenge on several fronts. One example is researching 
the possibility of developing a teacher induction and mentor program.

3) Development of a State-wide Teacher Induction and Mentor Program:
    In order to provide a support system for teachers as they begin 
their careers, a statewide mentoring and induction program is currently 
under consideration, recommended by the Certification Task Force, as we 
work to build capacity for a program of support for our new teachers. 
It is critical to first, recruit, and then retain, outstanding 
teachers. A recent Morrison report projects that Arizona can expect 
close to 7,130 new K-12 teachers to be trained to enter classrooms each 
year through 2005, and 6930 from 2006-2010. Therefore, we have much 
work to do!
    Currently, a team of stakeholders is working together to establish 
induction standards that will provide the foundation for all induction 
programs. It is our desire to create a system that will support 
teachers in our urban schools, as well as those teaching in very 
remote, rural areas of the state.
    Children cannot succeed and make gains without consistent, strong, 
visionary instructional leadership. Children CAN thrive and make 
significant gains with highly qualified teachers who are expertise in 
their content area, and who are effectively trained on how to implement 
best practices. These teachers also need the support and resources of 
strong school, district and governance leadership. We cannot ignore the 
conditions that need to be in place in order to provide them with the 
culture and climate conducive for both teacher and student success.
    One condition needed for successful implementation of research best 
practices in the classroom is providing high quality staff development/
training that is systematic, and systemic--fostering school change. 
This leads me to share with you, two examples that are fostering strong 
staff development implementation and strategies that are producing 
RESULTS. These are based upon the Arizona Department of Education's 
commitment to servicing our constituents with ongoing professional 
development, including training in effective teaching strategies that 
work.

4) Our Commitment to Teacher Professional Growth and Development:
    In order to lay the foundation for implementation of quality staff 
development, the Arizona Department of Education established the 
Arizona Professional Development Leadership Academy (PDLA) in 1999. It 
is a true grassroots effort on behalf of district and charter schools, 
which are supported through the state's county superintendents' 
offices.
    The PDLA provides support to both teachers and administrators in 
learning new professional strategic practices to ensure student success 
that is systematic and systemic. Funded through ADE's Academic 
Achievement Divsion, the AZ PDLA is recognized as one of the best staff 
development programs in the nation. 24 teams, representing over 300 
educators, have become active participants in the AZ PDLA, and these 
numbers continue to increase each year.
    One of the major goals of the Academy is to help our schools 
develop capacity for effective professional development by assisting 
teachers, principals, central office staff and superintendents in 
understanding three major components of effective professional 
development:
        1)  The NSDC (National Staff Development Council) Standards of 
        Staff Development: the foundation of what is currently known 
        about what constitutes effective professional development to 
        increase student learning. These consist of context standards 
        (learning communities, leadership, resources), process 
        standards (data-driven, evaluation, research based, design, 
        learning, collaboration) and content standards (equity, quality 
        teaching, family involvement).
        2)  The Models of Professional Development: professional 
        development is more than offering a workshop; the seven models 
        of professional development provide a variety of ways to 
        increase educator knowledge, aspirations, skills, behaviors and 
        attitudes;
        3)  Evaluation of Professional Development: how to plan and 
        gather evidence to determine whether professional development 
        has attained its intended goal of increased student learning.
    This academic year, the PDLA has provided extensive, rigorous 
training in the professional development standards, data analysis, 
models of professional development, accountability systems, effective 
evaluation, creating professional development, and more. Next month, 
PDLA teams from around the state will convene in Phoenix for a PDLA 
Summit, which will focus on understanding and implementing professional 
development and school improvement change: conditions necessary to be 
in place in order to strengthen highly qualified teaching in our state. 
(Attachment D)
    Another example of providing service to teachers with staff 
development is the implementation of the Reading First Initiative, a 
highly successful program that trains existing teachers to teach 
reading through effective teaching strategies. Professional development 
is based upon scientific research and its implications for 
instructional practice.
    Reading First training in Arizona has been designed in two tiers in 
order to promote school change: 1) through district and school 
leadership as a ``train the trainers'' model; and 2) through teachers 
of reading, utilizing ``teachers teaching teachers'' model, with a 
focus on instructional practice. These tiered levels initiative reflect 
a statewide, systematic and systemic infrastructure for quality staff 
development, by: identifying highly qualified teachers of reading, who 
are ``on loan'' from ADE to school districts. These highly qualified 
reading teachers are housed at each of the 15 county superintendents' 
offices, providing outreach and technical assistance throughout are 
large, diverse state. The infrastructure's design lays the foundation 
in assisting us in reaching three critical goals: 1) to close the gap 
between research and practice, 2) to provide professional development 
that is consistent in quality, while, 3) making these rich 
opportunities locally accessible.
    Our initial first round of reading test results are very, very 
hopeful, as they reflect significant improvements at the kindergarten 
level, in some of the schools with the poorest achievement records. 
Last August, only 9 % of students entering full-day kindergarten were 
up to par with their peers nationally in pre-reading skills. After 
taking part in scientifically based reading programs this year, more 
than half of these same kindergartners have reached grade level and are 
ready for first grade.
    In addition, as we further delve into public engagement following 
our first successful High School Reform Summit, co-hosted with the U.S. 
Department of Education (April, 2004), we will recommend strengthening 
technical assistance and support for literacy teaching and learning in 
our middle/secondary schools: a need that was expressed strongly from 
our outstanding principal and teacher leaders during the Summit. 
Therefore, it will be critical that the K-3 Reading First initiative 
expand, with the assistance of increased federal funding, to help us 
provide critical training and staff development in reading in the 
higher grade levels.
    In order to keep all children ahead--vs. behind--we must keep the 
continuum of improved student successes going--which is founded on 
providing high quality staff development, embedded in scientifically 
researched practices that work in our classrooms. This is a HUGE 
investment in advancing highly qualified teachers, and a much-needed 
one in advancing student achievement and successes for ALL students.

5) Arizona's Commitment to Develop Data Elements: tied to tracking 
        teacher quality and student achievement:
    Within the process of updating Arizona's certification system, we 
are investigating implementing a value-added system, by establishing 
individual teacher identifiers, tied to student achievement.
    According to Kati Haycock, Education Trust Director, ``Teacher 
effectiveness data systems are an essential and powerful tool in the 
effort to raise achievement and close the achievement gap'' (The Real 
Value of Teachers: Using New Information about Teacher Effectiveness to 
Close the Achievement Gap'' report by Kevin Carey). Such systems help 
us find out which teachers are the most effective, by matching them 
with the most needy students. Such data also provides critical 
information as to what types of professional development are the most 
effective, as well as which trainings and professional learning 
opportunities help them grow. States that are currently implementing a 
value-added component, tied to student achievement results, clearly 
demonstrate what we already know: that teachers have the biggest impact 
on student achievement.
    This is another condition needed if we are indeed going to promote 
and enhance truly highly qualified teachers in our classrooms. We have 
yet to close the achievement gap in this state with our minority 
student population and with those students living in poverty. It is 
imperative that we take a hard look at the research that has been done 
in Tennessee, where students that were assigned with the most effective 
teachers for three consecutive years, performed 50 percentile points 
higher on a 100-point scale--than comparable students assigned to the 
least effective teachers for three consecutive years.
    Overall, many teachers support measures that recognize the growth 
students make through their teaching. They strongly desire 
accountability in this important arena. Yet, systematically shifting 
higher performing teachers to working with students who need them the 
most, is no easy task in our current, complex system, both state-wide 
and nationally. The bottom-line is, it's difficult to accurately 
measure and control the value of teachers. However, these challenges 
should not halt us from attempting to try implementing a value-added 
system. I can only imagine the quality of teachers we may ``pool'' 
because of such an effort.

Closing:
Teachers are the fundamental resource of education.
    We need to treat our teachers as the answer to embracing excellence 
in teaching and in learning: because they ARE our resource. Therefore, 
maybe the focus needs to shift from that of only the STUDENT, to the 
important, critical role to that of the TEACHER. Once this shift 
occurs, then I predict that the conditions will fall into place 
regarding ``the whole highly qualified picture'', which consists of: 
highly qualified teacher preparation, highly qualified teacher 
recruitment, and highly qualified teacher retention, by supporting them 
with high quality resources and staff development, embedded in rich, 
evidenced-based practice.
    Then, we must celebrate our teachers' successes by honoring their 
achievements and disseminating their exemplary practices. Student 
achievement will then soar with these conditions in place, as long as 
they are fostered by strong instructional/school/district and state-
wide leadership.
                                 ______
                                 
    [Attachments to Dr. Butterfield's statement have been 
retained in the Committee's official files.]
    Chairman McKeon. Dr. Noone.

 STATEMENT OF DR. LAURA PALMER NOONE, PRESIDENT, UNIVERSITY OF 
                            PHOENIX

    Dr. Noone. Chairman McKeon, Congressman Porter, I would 
like to add my welcome to you to the Valley of the Sun and 
especially welcome you to the University of Phoenix.
    It's a great honor to have the Committee here as it 
performs its noteworthy work on teacher quality.
    As an institution of higher education, the University of 
Phoenix currently enrolls over 14,500 teachers or soon-to-be 
teachers in education-related degree programs.
    These individuals are either seeking the credential to 
become licensed teaching professionals or are returning to 
college to complete masters and doctoral degrees.
    This makes the University of Phoenix one of the largest 
programs of teacher preparation and professional development in 
the United States.
    No one can argue with the concept that having the highest 
quality teachers in the classroom in America is a good thing.
    Research findings show that the teacher and his or her 
professional qualifications has the greatest affect on the 
student's academic success.
    This comes as no surprise. Determining what exactly 
constitutes a high quality teacher is a bit more difficult.
    No Child Left Behind defines highly qualified teachers 
largely in terms of formal academic content preparation.
    Certainly teachers must have a solid working knowledge of 
the content they will teach, but pedagogical knowledge or the 
skills, expertise, and experiences necessary to teach a class 
well cannot be minimized.
    To say that a teacher's quality should be measured by one 
area of expertise alone, such as their knowledge of or degrees 
within a specific content area can trivialize the importance of 
producing an overall professional educator.
    How one teaches a course in terms of understanding the 
various methods students use to learn, using accepted content 
standards on which to base instruction, and applying 
appropriate assessment methods to verify that standards have 
been met are all vital requirements of a high quality teacher.
    The intent of No Child Left Behind is to ensure that every 
child has a highly qualified teacher.
    It provides guidelines as to what constitutes a highly 
qualified teacher and, at the same time, mandates that states 
develop alternative certification programs.
    Typically alternative certification programs require no 
prerequisite course work in education for admission. The 
candidate's professional knowledge is gained by placing him or 
her in the classroom as the responsible teacher of record.
    The charge to create alternative routes to certification 
affects both approval of teacher education programs and the 
individuals who pursue those programs while establishing a less 
regulatory-laden, burdened route to those who don't.
    This is very troublesome for the University of Phoenix and 
other teacher preparation institutions. We work very hard to 
meet state requirements, but these efforts can easily be 
sidestepped by these alternative routes.
    These alternative certification routes often ignore content 
and pedagogical preparation in favor of on-the-job training.
    While we laud the goal of preparing more teachers for the 
classroom, the situation creates two systems of certification, 
one highly regulated and one with little regulatory and 
assessment requirements.
    To address teacher quality at the University of Phoenix, we 
are designing programs that lead to state certification.
    Currently we offer the Master of Arts in Education program 
with initial licensure for Elementary Teacher Education, 
Secondary Teacher Education, Special Education, and 
Administration Supervision.
    These programs are approved to be offered in Arizona, 
California, Colorado, Hawaii, Michigan, New Mexico, Nevada, 
Oregon, Utah, Wyoming and the commonwealth of Puerto Rico.
    In addition to the local campus programs, the University of 
Phoenix offers education programs through our online delivery 
modality.
    The online delivery allows students located outside the 
state of Arizona in all settings to access and complete the 
necessary course work to become a certified teacher.
    The Master of Arts in Education/Teacher Education program 
is an Arizona-approved teacher preparation program which, upon 
successful completion of the program, qualifies a student to 
sit for an Arizona teaching certificate and obtain an 
Institutional Recommendation from the University of Phoenix.
    Although this program provides a viable option to address 
the nationwide teacher shortage, the University has encountered 
many roadblocks in offering the program to students nationwide.
    Some states require all schools who would propose to have a 
student teacher within their state to have state-specific 
program approval.
    Therefore, although the University may have no contact with 
the state other than the presence of a prospective student 
teacher resident, we cannot secure a student teaching placement 
until we obtain the state's approval.
    The University continues to seek those approvals in 
additional states to offer the teacher preparation programs, 
but honestly, the timeframe for obtaining these approvals is 
often extremely protracted.
    Therefore, if a student enrolls from one of these states, 
the University must obtain a partnership with the state 
institution in that state that already has the requisite state 
approval.
    Many states have adopted the requirement that students must 
attend an NCATE-accredited institution in order to become 
licensed in the state and will not allow non-NCATE institutions 
to partner with NCATE schools.
    As a result of those states, the University of Phoenix has 
no option to form partnerships whatsoever.
    Still, other states have unique teacher certification 
programs. This means that an Arizona teaching certificate is 
not at all comparable.
    Consequently, students who obtain that Arizona certificate 
are not able to become certified in these states without an 
abundance of additional course work or, in some situations, a 
repeat of their student teaching experience within the state of 
certification.
    In conclusion, the problems relating to producing the 
additional number of high quality teachers required are not 
insurmountable.
    It is possible to mount a national effort that can make a 
significant difference in educating excellent teachers, and 
institutions like the University of Phoenix are well positioned 
for the task.
    But the creation of standards for teacher preparation is 
currently a state-by-state endeavor, and the process of 
navigating the intricacies and nuances of every state's 
processes is daunting, expensive, and time consuming.
    Very often the requirements are arcane, and the process is 
designed to discourage innovative approaches.
    Assessment of individual teacher performance is itself a 
complex issue. We would urge you to consider a more holistic 
approach, such as what the State of Arizona has endorsed, to 
determine teaching qualifications.
    A teacher should be judged on the whole of their 
performance, including pedagogical approach, classroom 
management, and content.
    Merely adding up credit hours on their transcript does not 
guarantee a highly qualified teacher nor does the absence of a 
specific course on a transcript condemn a teacher to mediocrity 
or substandard performance.
    Similarly, alternative certification programs must be held 
to the same set of standards of accountability to produce high 
qualified teachers both in terms of content and in terms of 
pedagogy.
    Thank you for allowing me to present this testimony on 
behalf of the University of Phoenix.
    And I would also like to thank the staff of the 
University's College of Education for assisting me in the 
preparation of these remarks.
    Thank you.
    [The prepared statement of Dr. Noone follows:]

Statement of Laura Palmer Noone, Ph.D., J.D., President, University of 
                                Phoenix

    At the outset, I would like to welcome you all to the Valley of the 
Sun and especially welcome you to the University of Phoenix. It is a 
great honor to have the subcommittee here as it performs its noteworthy 
work on teacher quality.
    As an institution of higher education, the University of Phoenix 
currently enrolls over 14,500 teachers or soon-to-be teachers in 
education-related degree programs. These individuals are either seeking 
the credential to become licensed teaching professionals or are 
returning to college to complete master's or doctoral degrees, many in 
response to the No Child Left Behind (NCLB) requirements of highly 
qualified teachers. Others are seeking pay grade advances, while others 
are hoping to move to administration or to a specialty area such as 
bilingual education or reading. All told, this makes the University of 
Phoenix one of the largest programs of teacher preparation and 
professional development in the United States. It is from this 
perspective that I offer my thoughts on the condition of teacher 
preparation today. I have been asked to address my remarks to three 
areas--the importance of teacher quality; the need for NCLB highly 
qualified teacher requirements; and the efforts of the University of 
Phoenix to help schools ensure teachers have at least acceptable, if 
not superior, subject matter knowledge for the subjects they teach.

                   The Need for High-Quality Teachers

    Much like baseball and apple pie, no one can argue with the concept 
that having the highest quality teachers in the classroom in America is 
a good thing. Although we in the education field have long proclaimed 
the importance of having qualified and caring teachers within K-12 
school settings, studies linking teacher quality to proved student 
performance are limited. Researchers such as William Sanders, Richard 
Ingersoll, and Linda-Darling Hammond have been able to put some form of 
quantitative measurement to the degree of importance that qualified 
teachers play in students' academic success. Their findings show that 
the teacher, and his or her professional qualifications, has the 
greatest effect on a student's academic success. This comes as no 
surprise.
    While no one argues with this concept, determining exactly what 
constitutes a high-quality teacher is a bit more difficult to identify 
and define. Certainly teachers must have a solid working knowledge of 
the content they will teach. For the University of Phoenix this concept 
is paramount. Indeed, we insist that our faculty members be 
practitioners within their respective fields of expertise and licensed 
to teach in the public school systems. Pedagogical knowledge or the 
skills, expertise, and experiences necessary to teach a class well 
cannot be minimized. To say that a teacher's quality should be measured 
by one area of expertise alone, such as their knowledge of or degrees 
within a specific content area, can trivialize the importance of 
producing an overall professional educator. How one teaches a course in 
terms of understanding the various methods students use to learn, using 
accepted content standards on which to base instruction, and applying 
appropriate assessment methods to verify that standards have been met, 
are all vital requirements of a high-quality teacher. The University of 
Phoenix, as well as many other teacher preparation programs throughout 
the country, believes in producing a well-rounded teacher: one who 
knows his or her content area, understands and practices the methods of 
learning and instruction, and handles the daily rigors of a K-12 
environment well.

              The Need for NCLB Highly Qualified Teachers

    The Secondary and Elementary Education ACT or No Child Left Behind 
(NCLB) is an ambitious piece of legislation. Through forces not 
necessarily within their control, many states find themselves in the 
position of having a shortage of qualified, licensed teachers willing 
to instruct. This often results in non-certified teachers in the 
classroom, by means of emergency or temporary certification.
    The intent of NCLB is to eliminate this problem and thereby ensure 
that every child has a highly qualified teacher. NCLB addresses 
qualification by placing a heavy emphasis on adequate content knowledge 
in order to ensure that persons entering the teaching profession have 
documented expertise in the area in which they wish to teach. The 
guidelines as put forth in NCLB for states to certify individuals as 
``highly qualified'' are as follows:
    <bullet>  Having a bachelor's degree
    <bullet>  Having certification or licensure as defined by the state
    <bullet>  Being able to demonstrate competency (as defined by the 
state) in each core academic subject he or she teaches.
    Various changes have been made to these guidelines in response to 
states concerns over being unable to meet the aforementioned 
requirements for individuals teaching in rural areas, teaching across 
multiple science areas, and teaching multiple core academic areas.
    NCLB Teacher Quality Grants also mandate that states must follow 
certain variables in order to receive the federal grant monies. 
Variables in this mix include:
    <bullet>  Reconstruction of certification to verify content and 
pedagogical knowledge
    <bullet>  Institution of adequate support services and assessment 
of beginning teachers
    <bullet>  Creation of alternate routes to certification
    <bullet>  Recruitment and retention of teachers
    <bullet>  Reformation of tenure systems
    <bullet>  Establishment of sufficient professional development 
services
    <bullet>  Implementation/enhancement of a reciprocity system for 
teacher credentials across states
    These variables appear to make assumptions about the quality of 
state certification systems and the quantity of individuals interested 
in teaching. Yet, there is substantial debate about whether these 
assumptions are adequately supported though either state certification 
or research-related data.
    Many states have developed or are initiating programs that provide 
alternative routes to teacher certification, particularly for mid-
career professionals. The goal of such programs is to draw a diverse 
pool of individuals with backgrounds in particular fields into the 
teaching profession. Requirements for an alternative teaching license 
vary by state. Generally, applicants must hold a bachelor's degree in 
the subject to be taught, achieve a passing score on state-required 
examinations, complete some type of teacher preparation program (these 
are usually provided by school districts), and possibly fulfill a 
supervised teaching internship. After satisfactory completion of these 
requirements, the applicant will be issued a teaching credential.
    There can be great differences from state-to-state as to what 
additional training and coursework is required and how much support is 
offered to the new teacher once he or she is in the classroom. 
Typically, alternative programs require no prerequisite course work in 
education for admission. College graduates from all accredited 
universities, including international ones, are admitted. The 
candidate's subject matter knowledge can be demonstrated by examination 
as well as by the major. The candidate's professional knowledge is 
gained by placing him or her in the classroom as the responsible 
teacher of record. The primary faculty members who instruct the teacher 
candidates are classroom teachers serving as on-site mentors.
    Admission to an alternative certification program is usually 
predicated upon the teaching candidates going through the hiring 
process of a school district and then being placed as a beginning 
teacher of record, with no previous education coursework or experience. 
The evaluation of candidates is based on their demonstrated 
competencies with the students they teach and by their students' 
achievement, which of course varies greatly between school districts 
and states.
    The charge to create alternative routes to certification is an 
indicator of the desire from NCLB authors to continue mandating 
rigorous regulatory procedures. These mandates affect both approval of 
teacher education programs and the individuals who pursue these 
programs, while establishing less regulatory-laden routes (and more 
circumspect in quality) for those who don't. This is very troublesome 
for the University of Phoenix and other teacher-preparation 
institutions. We work very hard to meet state requirements but these 
efforts can be easily sidestepped by state alternative routes. As 
evidenced above, these alternative certification routes often ignore 
content and pedagogical preparation in favor of ``on the job 
training.'' While we laud the goal of preparing more teachers for the 
classroom, the situation creates two systems of certification; one 
highly regulated and one with little regulatory and assessment 
requirements.
    NCLB has done many positive things for improving teacher quality. 
It puts states'' ``feet to the fire'' to provide the necessary proof 
and documentation of how teachers are tracked within their profession 
by schools/districts and makes state agencies responsible for verifying 
the quality of teachers. NCLB requirements do make teacher education 
programs more responsible for the content areas of their graduates and 
their ability to meet state certification/licensure examinations (also 
through Title II of the Higher Education Act).
    However, there are some issues with implementation of NCLB. The 
statute requires states and school districts to comply with the 
provisions of the new law while ignoring the importance of the two key 
requirements related to teachers. States feel they have been pressured 
to implement NCLB provisions related to school choice, supplemental 
services, and academic testing immediately. The choice and supplemental 
service provisions uproot students and take money out of school 
district funds, which many feel could be used to train and retain more 
qualified teachers.
    It is not enough to test students and label them and their schools 
as failing. We must help teachers work effectively as the professionals 
they are and encourage retention and growth as well as an increase in 
effectiveness. The federal government has not fulfilled its promise to 
the states to create the plans and definitions necessary to recruit, 
retain, and support quality teachers (Leaving Teachers Behind, 2003). 
By working with districts, the teachers unions, other community 
organizations, as well as state and local governments, the NCLB can 
assist in ensuring that the plans necessary to fulfill the promises of 
the Elementary and Secondary Education Act (ESEA) of 2001 may be 
realized. This includes working together to define what a highly 
qualified teacher is in each state, to determine what kinds of 
information should be presented on the school report cards, and to 
create the programs and plans necessary to create equity in the 
teaching force (Leaving Teachers Behind, 2003).

        Addressing Teacher Quality at the University of Phoenix

    Colleges of education are faced with difficult choices in the 
debate over teacher quality. The following section addresses some of 
the decisions made by the University of Phoenix in addressing teacher 
quality.

Seek national accreditation for teacher education programs
    At the University of Phoenix the College of Education is seeking 
national accreditation from the Teacher Education Accreditation Council 
(TEAC). Our application for the teacher education and administration 
programs will be submitted by September 1, 2004. The decision to seek 
programmatic accreditation is tied directly to benefits to our 
students. Many states are beginning to tie their state licensure 
standards to graduation from a programmatically-accredited course of 
study.

Align programs to national and state standards
    All of the master's programs offered in the College of Education 
are aligned to the unit standards set forth by the National Council for 
Accreditation for Teacher Education (NCATE). The program curricula are 
aligned to applicable state standards and the program standards 
designed by the Specialty Areas Studies Board approved by NCATE. In 
this way, the University intends to prepare students to sit for state 
licensure exams and provide the competencies sought by each state in 
credentialing teachers.

Design programs to lead to state certification
    The College of Education currently offers the following Master of 
Arts in Education initial licensure programs: Elementary Teacher 
Education, Secondary Teacher Education, Special Education, and 
Administration and Supervision. These programs are approved to be 
offered in Arizona, California, Colorado, Hawaii, Michigan, New Mexico, 
Nevada, Oregon, Utah, Wyoming and the Commonwealth of Puerto Rico. In 
addition, the College of Education is in the planning stages of 
offering two additional initial licensure programs: the Bachelor of 
Science in Elementary Education and the Master of Arts in Education in 
Early Childhood Education.

Develop additional courses in mathematics, English, and history content 
        areas
    To satisfy the highly qualified teacher mandate of the No Child 
Left Behind legislation, the University is developing 24 upper-division 
credit hours in each of the content areas of mathematics, English, and 
history. By offering these courses we will assist educators who are, 
for whatever reason, teaching out of their content areas to be in 
compliance and to remain in their current classroom.

Verify content-area proficiency
    Teacher Education candidates must pass their state's professional 
knowledge exam prior to being issued an institutional recommendation 
for certification/licensure by the University. Performance on these 
exams is reported in the annual Higher Education Act (HEA) Title II 
report, produced each spring by each state. On average, our aggregate 
student scores on the professional knowledge exam meet or exceed a 98% 
pass rate.

Ensure high quality, authentic assessments
    The College of Education has several mechanisms in place to assess 
candidate quality and progress. The progression requirements of each 
program determine whether the candidate is ready to move forward in the 
program and begin the student teaching or internship experience. 
Progression requirements include:
    <bullet>  Passing score on the University's Basic Skills 
Proficiency Assessment in Reading, Grammar, and Mathematics
    <bullet>  Achieving passing scores on the formal interview
    <bullet>  Submitting a two-page typewritten statement detailing 
reasons for wanting to become a teacher, including any past experiences 
in teaching
    <bullet>  Verifying fingerprint clearance
    <bullet>  Submitting two professional letters of recommendation 
completed in the past year
    <bullet>  Providing verification of immunization or TB test results 
(Not all schools/districts require this.)
    <bullet>  Verifying content knowledge mastery prior to enrolling in 
student teaching courses
    Throughout the program, each candidate is required to develop his 
or her own Electronic Portfolio with specific artifacts included as 
evidence of knowledge and skills. These artifacts are evaluated against 
established rubrics and are aligned to our program standards. 
Candidates must maintain minimum competencies on the portfolio and 
receive a passing graded score on the overall product at the end of the 
program.
    During student teaching, candidates complete a teacher work-sample 
project in which they must create a multiple-week, standards-based 
unit; create and implement pre- and post- assessments; make 
accommodations for diverse learners; and reflect on the unit once it is 
completed. As an added component of this assignment, candidates must 
track the progress of two students and detail the students' progress 
during the unit. The teacher work sample is a graded assignment, the 
results of which affect whether the student passes or fails student 
teaching.
    During the administrative internship, candidates compile the vast 
amounts of material they accumulate and performance evaluations into an 
Internship Notebook. Along with the materials and evaluations, 
candidates must provide reflections on the various stages of the 
internship experience. The notebook is a graded assignment with 
significant impact on passing or failing the internship experience.

Continue and improve extensive field experiences, student teaching, and 
        internships
    Throughout the Special Education, Elementary, and Secondary Teacher 
Education programs, candidates are required to complete a minimum of 
100 hours of verified field experience, covering a variety of 
developmental levels. The focus of each observation is related to 
specific course content. Documentation is maintained in the candidate's 
professional portfolio.
    Student teaching is an integral component of the Special Education, 
Elementary, and Secondary Teacher Education programs. It provides 
candidates with a field-based experience at the appropriate grade and 
content level. Student teachers work with a cooperating teacher from a 
school site as well as a University of Phoenix faculty advisor. The 
student teaching experience is designed to enhance practical experience 
in a controlled environment and to emphasize the achievement of state 
standards leading to certification. This experience presents 
individuals with growth opportunities that best prepare them to assume 
the duties of a certified classroom teacher.
    Each candidate in the Master of Arts in Education, Administration 
and Supervision program is required to complete a practicum experience 
in an appropriate P-12 school. Candidates are under the direct 
supervision of a University faculty supervisor and a licensed school 
administrator who will acts as the site supervisor. The practicum is 
divided into three sections (EDA 590 A/B/C) each of which coincides 
with the coursework completed in the master's program.

Survey graduates and their employers
    Alumni of the College of Education are surveyed to analyze the 
strengths and weaknesses of the programs in order to continually 
monitor and update the curriculum. Alumni are asked to evaluate texts, 
assignments, faculty knowledge, faculty preparedness, faculty 
facilitation, applicability of course content, curriculum, and academic 
rigor. The alumni survey provides valuable data about a graduate's 
experience with the Education programs.
    Employers of alumni from the College of Education are asked to rate 
our graduates on the quality of teacher preparation, instructional 
design and planning skills, management of instruction and students, use 
of assessment measures, communication, collaboration, willingness to 
participate in professional development, demonstration of content and 
professional knowledge, and integration of technology. The University 
terms employers of our students ``shadow consumers'' of our programs 
and places high value on this feedback.

   University of Phoenix Teacher Preparation Program State Challenges
    In addition to the local campus programs, the University of Phoenix 
offers Master of Arts in Education programs through the online delivery 
modality. These degree programs are Arizona-approved programs. As 
indicated in the NCLB, approximately one third of all school districts 
in the United States are classified as rural. The online delivery 
allows students located outside the state of Arizona in all settings 
access to complete the necessary coursework to become a certified 
teacher. In particular, the Master of Arts in Education/Teacher 
Education (MAED/TED) program is an Arizona-approved teacher preparation 
program, which upon successful completion of the program, qualifies a 
student to sit for an Arizona teaching certificate and/or obtain an 
Institutional Recommendation from the University of Phoenix. Although 
this program provides a viable option to address the nationwide teacher 
shortage, the University has encountered many roadblocks to offering 
the program to students nationwide.
    We believe the University of Phoenix is in a position to assist 
America by providing more highly qualified teachers. Many times these 
efforts are stymied by roadblocks and challenges. The following 
outlines the main categories of challenges the University of Phoenix 
has encountered regarding student teacher placement and certification 
through our online program of study.
    In some states, the higher education board expects all schools that 
have a ``physical presence'' established within the state, evidenced by 
student teaching in that state, have state-specific program approval. 
Therefore, although the University has no contact with the state other 
than the presence of a student teacher/resident, we cannot secure a 
student teaching placement unless we obtain the said state approval. 
The University continues to seek approvals in additional states to 
offer the teacher preparation programs, but the timeframe for obtaining 
these approvals is often extremely protracted. Therefore, if a student 
enrolls from one of these states, the University must obtain a 
partnership with a state institution that has the requisite home state 
approval. While we have established partnerships with other 
institutions, most were partnerships developed with a ``one time 
placement'' in mind. The majority of these partnerships will not 
facilitate future student teachers.
    As mentioned earlier, many states have adopted a requirement that 
students must attend NCATE-accredited institutions in order to become 
licensed. Institutions that are NCATE accredited will not partner with 
institutions that are not. As a result, in NCATE states, University of 
Phoenix is unable to form any partnerships.
    A few states have unique teacher certification programs. This means 
that an Arizona teaching certificate is not at all comparable. 
Consequently, students who obtain an Arizona certificate are unable to 
become certified in these states without an abundance of additional 
coursework or other items, such as teaching experience in the state of 
certification.
    Departments of education, higher education boards, and institutions 
of higher education are in a constant state of flux trying to ensure 
that the quality of teachers and educational personnel is at a premium. 
As a result, policies and procedures change frequently, as do the 
relationships between different educational agencies. The No Child Left 
Behind legislation may encourage yet more changes in many agencies with 
which the University of Phoenix deals on a regular basis. As a result 
of these changes, one of the most challenging aspects for any multi-
state institution will be to maintain awareness and affiliation with 
the range of state licensing agencies.
    It is not often that one gets the opportunity to advise a 
distinguished body like this on how to solve national issues. I do not 
believe that the problems related to producing the additional number of 
high quality teachers we require are insurmountable. Under the present 
system, however, we will be hard-pressed to solve them. There is a 
saying in the literature of continuing quality improvement that goes, 
``every process is perfectly designed to produce the results it is 
producing.'' And MIT's Peter Senge has maintained that for the most 
part ``structure determines behavior.'' We believe that it is possible 
to mount a national effort that could make a significant difference in 
educating excellent teachers and that institutions like the University 
of Phoenix are perfectly suited to the task. The creation of standards 
for teacher preparation is currently a state-by-state endeavor and the 
process of navigating the intricacies and nuances of every state's 
process is daunting, expensive and time consuming. Very often the 
requirements are arcane and the process is designed to discourage 
innovative approaches. So long as the status quo largely remains, our 
efforts to produce significant numbers of teachers who are prepared to 
really make a difference will produce uneven and disappointing results.

                               Conclusion

    Like any issue of national magnitude, creating a nation of highly 
qualified teachers will not be an easy task, especially when there is 
little-to-no consensus on the definition of the problem. There are many 
issues, including states' rights to oversee the process of licensure, 
funding availability, as well as the performance of colleges of teacher 
education and the performance of individual teachers in the classroom. 
Assessment of individual teacher performance is itself a complex issue. 
Some states have taken an approach of merely counting content area 
academic credits to determine highly qualified teachers, but other 
states have chosen to take a more holistic approach to determining 
professional qualifications. We would urge you to consider the latter 
approach as the better way to determine teaching qualifications.
    A teacher should be judged on the whole of their performance, 
including pedagogical approach, classroom management, and content. 
Merely adding semester hours does not guarantee a highly qualified 
teacher. Nor does the absence of a specific course on a transcript 
condemn a teacher to mediocrity or substandard performance.
    Thank you for allowing me to present this testimony on behalf of 
the University of Phoenix. I would also like to thank the staff of the 
University's College of Education for their assistance in the 
preparation of these remarks.

                               Reference

    Leaving teachers behind: How a key requirement of the No Child Left 
Behind Act (Putting a Highly Qualified Teacher in Every Class) has been 
abandoned. (2003). Association of Community Organizations for Reform 
Now. Washington, D.C.
                                 ______
                                 
    Chairman McKeon. Dr. Solmon.

  STATEMENT OF DR. LEWIS C. SOLMON, EXECUTIVE VICE PRESIDENT, 
EDUCATION, DIRECTOR, TEACHER ADVANCEMENT PROGRAM, MILKEN FAMILY 
                           FOUNDATION

    Dr. Solmon. Thank you, Mr. Chairman, Congressman Porter. 
It's an honor to be here today and to support Congress's and 
the Administration's good work in No Child Left Behind.
    And before I get into my remarks, I would just want to urge 
you to keep fighting and keep pushing it ahead because some of 
the comments that we're hearing are frustrating on our side as 
well. So I encourage you to go on.
    I was asked to talk about the Teacher Advancement Program 
which is a program that the foundation has set up.
    And I would like to start by just giving you a little 
background rationale, quickly describe you the program and its 
outcomes.
    I won't go into the importance of quality teachers. That's 
already been talked about.
    Let me just say that one of the implications of not having 
people in the field is that in low SAS schools, 61 percent of 
science teachers, as an example, are not qualified in science. 
Some of them have not had a course since junior high school and 
are teaching science.
    That's a very horrible thing to have. We have tremendous 
turnover among the teaching corps. A third leave in 3 years. 
And it's the best ones who leave.
    We have a maldistribution of high quality teachers such 
that the best teachers are not in the schools that need them 
the most.
    And the result is that 50 years after the Brown versus the 
Board of Education decision, which has been mentioned, 69 
percent of all 4th graders are not proficient in reading. 60 
percent of African American 4th graders cannot read. That means 
they're below basic.
    Well, we have looked, at the Milken Family Foundation for 
the last 20 years, we have looked at a variety of reforms, 
early childhood education, standards and assessment, and 
particularly technology.
    And our conclusion was that, no matter what reform you 
implement, without a quality teacher, nothing matters.
    Would you rather have a class of 20--well, would you rather 
have a class of 40 with a stimulating, exciting, well-prepared, 
knowledgeable teacher? Or would you rather have a class of 20 
with a dullard?
    We looked at technology, and we concluded after about 5 
years of work that you can put all the hardware and all the 
software and all the wiring in a classroom, but if a teacher 
does not have the motivation and ability to get the skills that 
they need to change what they are doing, no matter how much 
technology you have, nothing will work.
    And, indeed, every school in the country's wired and test 
scores are not going up.
    We became convinced, actually about 6 years ago, before No 
Child Left Behind, that a bold new strategy was required for 
the education profession that counters the drawbacks of low 
compensation, lack of career advancement, unsupported 
accountability demands, and ineffective professional 
development that has plagued the teaching profession.
    And we believe the Teacher Advancement Program is that bold 
new strategy. It's comprised of five principles, the most 
discussed of which is performance pay. A dirty word in some 
circles. Hopefully not here.
    However, unlike other new-pay plans, TAP supports its plan 
with a strong performance assessment system, a new type of 
professional development that deals with real issues teachers 
face in their classrooms and helps them prepare to be assessed 
and provides multiple career paths so that teachers can advance 
as in other professions.
    Every teacher who leaves is a cost because you've got the 
cost of recruiting a new one and inducting them, but if we keep 
attracting people into the same old profession, they are bound 
to leave.
    So let me just take a couple of minutes on the five 
principles of TAP. First of all is multiple career paths.
    What other profession do you enter in day one with a title, 
teacher, and a set of tasks, and 30 years later you retire with 
the same title and the same set of tasks?
    That's not very attractive to certain kinds of people.
    So what we do is we have a whole stage or set of stages. 
You start out as an inductee. Then you become a career teacher, 
then a mentor teacher, and a master teacher.
    Each of those steps has increasing levels of professional 
qualifications, responsibilities, authority, assessment rigor, 
and compensation.
    Now, one might say, isn't that the same as those old failed 
career ladder programs of 10 to 20 years ago?
    What happened 20 years ago is you took the best teachers 
and you made them a master teacher. You gave them a title, 
probably a plaque, and maybe a little bit of money, $200 to 
$500, and gave them a lot more work.
    Is there any wonder it failed?
    It's disrespectful to take good people and not reward them 
for extra effort. So that's multiple career paths.
    The second thing is performance-based accountability.
    Today teachers get evaluated once a year, if that, by a 
principal who goes in, does a checklist, everybody passes, no 
problems.
    Our professional accountability system has performance 
standards with research based evaluation of performance based 
on what works, what makes kids learn.
    Are they doing the things in their classroom that make kids 
learn?
    There are five performance levels.
    Nobody gets a five. We believe all teachers can do better. 
And our evaluation includes not only teacher performance but 
student performance. A little more on that in a minute.
    People are afraid: We don't want to evaluate teachers 
because the principal could be biased or show favoritism or 
whatever.
    We have trained, certified evaluators that the Milken 
Family Foundation trains and certificates.
    Teachers are evaluated six or more times a year by multiple 
evaluators, mentor and master teachers, as well as the 
principal and, as I said, six or more times by multiple 
evaluators.
    And when they are evaluated, these are not punitive. We 
look at what teachers are doing and say, you might need a 
little help here. And then we provide the help.
    And performance is tied to accountability.
    Then we change the schedule of the school to be able to 
provide during the day on an ongoing basis for at least 90 
minutes a week what we call ongoing applied professional 
development.
    Teachers meet in groups of five-nine teachers led by a 
master mentor teacher looking at the student data, student 
portfolios and the evaluations that they received in their 
classrooms.
    And the question is asked, what do you need to do to become 
a better teacher?
    Now, I was the Dean of the Education School of UCLA, and I 
don't mean to speak for the University of Phoenix or Gene 
Garcia who I think is in the room from Arizona State.
    But I know that, really, at UCLA, in the time that I was 
Dean, much of our professional development was based on what 
interested the faculty.
    If our faculty were doing research on something or if there 
was a new hot topic, they would offer it, and if the time was 
convenient, the teachers came and took the classes.
    That had nothing to do necessarily with the fact that a 
particular teacher could not teach long division very well.
    Our kind of professional development says, your kids are 
not scoring well in long division or in converting fractions, 
so let the master teacher go in and actually teach a lesson in 
your class, to demonstrate, to model the lesson, to show them 
how to do it, then watch you do it and to see if you're doing 
it well.
    That is professional development, not taking courses in the 
latest fad that interests a University faculty.
    Now, then there's performance pay.
    Salary is determined by the responsibilities and 
effectiveness of performance. Higher pay is granted for 
excellent teacher performance as judged by experts. There are 
different functions and abilities as they move up the ranks, 
and student achievement in a value-added way.
    Now, some people say--we talked about the nepotism already, 
but we don't want--it's not fair to look at student achievement 
because some people get smarter students than others. That's 
what value added solves.
    We look at improvement. So if you've got a student at the 
20th percentile and you can bring her up to the 50th, that may 
actually get you more of a compensation bonus than you would 
get for having students at the 80th and moving them to the 82nd 
percentile. So value added takes away the advantage of having 
smarter students.
    But again, performance pay alone is not enough. It has to 
be supported by a strong transparent and fair teacher 
evaluation system, professional development to deal with 
deficiencies, et cetera.
    So I said 50 percent of the bonus is on skills and 
knowledge. 50 percent is on the student achievement. Half of 
that, roughly, schoolwide and half of that for what the 
individual teacher's students learn.
    What other profession doesn't look at what you're producing 
when they determine your compensation?
    Now, it's an expensive program. It costs about $400 a 
student. Money has been found in districts, the State 
Department of Education budgets, new state appropriations. 
There have been ballot initiatives in several states. Private 
foundations have helped, Federal funds from No Child Left 
Behind.
    Our program is written in as an allowable use of Title II 
funds. Many states are using their Title II funds both at the 
state 5 percent holdback and the amount going to the districts 
to support this program.
    And we were fortunate enough to get a fund for improvement 
of education, a grant from the Department of Education last 
year.
    Just to conclude with some results.
    We're now in eight states, moving to Ohio and Minnesota 
next year, and possibly Texas. We started out in 2002-2003 with 
31 schools.
    We now have over 70 and will have over 80 next year.
    Now, what everybody wants is results.
    I wrote something in Education Week a couple of months ago 
that said that policymakers want results too soon. You know, 
they pass a law in January and want to know if it's had any 
effect on student achievement in June.
    That's OK. It's reasonable. But in any case, we have some 
early results. And I'll tell you two kinds of things.
    Our main goal is to improve student achievement. Our first 
goal is to improve student achievement.
    We were able to compare 25 TAP schools in different years, 
less than 25 schools, but looking at them year-to-year, growth 
in student achievement compared to controlled schools, similar 
schools not doing TAP.
    Our schools beat the controlled schools 70 percent of the 
time. Now, my boss, Lowell Milken says, ``Why only 70 percent?"
    Well, the answer is, the closer you adhere to our model, 
the more likely you are to actually beat the controlled 
schools.
    But the RAND Corporation did a study of comprehensive 
school reform schools which have been in business for 10, 15 
years longer. We had been in business two to 3 years when we 
beat the controlled schools 70 percent of the time.
    The RAND study found that comprehensive school-reform 
schools beat their controlled schools 47 percent of the time in 
math and 50 percent of the time in reading which is like 
flipping a coin. And they were in business for a lot longer 
time.
    The other wonderful story, and I'm pleased say that Linda 
Califano, who's the principal of one of the schools that I'm 
going to talk about now, Rose Lane School in the Madison School 
District in Phoenix--We do four out of seven schools in the 
Madison School District, our TAP schools. Some of them said, we 
have high achieving students, we don't really need to do it.
    They didn't ask about value added. They just said they had 
high achieving students. But the ones with the lowest SAS, the 
lowest achieving schools decided to do TAP.
    And of those, we looked at the two lowest SAS schools, and 
over the last 2 years they hired 61 teachers. Over the last 3 
years they hired 61 teachers.
    21 percent of those hires at low SAS schools came from 
either the higher SAS schools in the Madison School District or 
high SAS schools in surrounding districts.
    Now, as you know, the flow of teachers is--generally low 
SAS schools are generally the farm team for the rich suburbs or 
the rich schools. Kids can't get a job. They go into low SAS 
schools. As soon as an opening comes, they move into high SAS 
schools.
    TAPS seems to have--yet it's early, it's a small sample at 
this point, but what we have seen here and anecdotes that we 
have heard from our schools in our 10 other states tell us that 
when you have a professional system, a systemic reform that 
provides career advancement, rewards for getting student 
achievement, collegiality by working together to get better, 
all of those things attract teachers even to low SAS schools.
    So we're very excited. We're seeing good attitudes. We're 
seeing teachers feeling much stronger feelings of collegiality, 
higher teacher satisfaction. So we're very pleased.
    We believe that in order to attract, retain, motivate, and 
develop high quality teachers, we need to change the 
environment of the schools; we need to have career advancement; 
we need to have performance pay; we need to have a good 
evaluation system; we have to change the way professional 
development is conducted.
    I hope more schools in Arizona will use the model of the 
Madison School District. They are certainly doing it all over 
the country.
    In South Carolina they have decided to use the Teacher 
Advancement Program as one of their programs for technological 
assistance for schools that need improvement.
    In Florida they have legislated something called Better 
Education for Students and Teachers, the BEST program which 
funds districts, whole districts to take on TAP or TAP-like 
programs.
    So it's going on around the country. And we're very excited 
and we are looking forward to working with the No Child Left 
Behind legislation in the future.
    Chairman McKeon. Thank you very much.
    [The prepared statement of Dr. Solmon follows:]

 Statement of Dr. Lewis C. Solmon, Executive Vice President, Education 
 and Director, Teacher Advancement Program, Milken Family Foundation, 
                        Santa Monica, California

                           Executive Summary

    Lewis C. Solmon will be representing the Milken Family Foundation. 
The Milken Family Foundation is a nonprofit public benefit 
organization, qualified under Section 501(c)(3) of the Internal Revenue 
Code to undertake educational and other charitable activities. While 
the Milken Family Foundation does not advocate any specific 
legislation, the Foundation does engage in nonpartisan analysis, study 
and research on education policy issues and presents its views on 
legislative proposals when requested to do so by appropriate 
governmental officials.
    Testimony by Lewis C. Solmon will provide the committee with an 
overview of the Milken Family Foundation's Teacher Advancement Program 
(TAP). TAP is a comprehensive, whole school reform that provides 
teachers with career path and advancement opportunities; compensates 
expert teachers for their skills and responsibilities; restructures 
school schedules to accommodate teacher-led professional development; 
introduces competitive hiring practices; and pays teachers based on how 
well they instruct and how much their students learn. These components 
make the teaching profession more appealing, the job conditions more 
manageable, and the pay for high quality teachers more generous. 
Currently, TAP is being implemented in eight states: Arizona, Arkansas, 
Colorado, Florida, Indiana, Louisiana, and South Carolina, including 
the entire districts of Eagle County, Co.; and Sumter County, Fla.; and 
in schools in the Archdiocese of Indianapolis. TAP expects to start in 
Ohio, Minnesota, and possibly Texas next fall. Over 75 campuses are now 
involved--impacting more than 34,000 students and 2,100 teachers--and 
that number is expected to grow even more by the beginning of the 2004-
05 school year. These schools are supported by a variety of funding 
sources, including private foundation grants, legislative 
appropriations, increases in property tax levies targeted for TAP-like 
programs, sales tax increases, general revenues from state budgets, 
district funds and federal dollars available through No Child Left 
Behind.

                   Need for Improving Teacher Quality

    Quality teachers are central to assuring an excellent educational 
experience for every young person in America. That is why No Child Left 
Behind (NCLB) has made teacher quality a pivotal element of its school 
improvement program. In polls, the public consistently ranks 
strengthening teacher quality among the most important issues facing 
education (Rose & Gallup, 2002). Moreover, this view is supported by a 
large body of academic research demonstrating that the single most 
important school factor related to increased student achievement is 
having a high quality teacher in the classroom (Haycock, 1998; Marzano, 
2003; Rivkin, Hanushek & Kain, 2000; Sanders & Horn, 1998).
    Yet, despite the evidence that quality teachers are of utmost 
importance, until No Child Left Behind, ensuring a quality teacher for 
every student has not been a priority in the myriad attempts to improve 
public schools. In fact, of the over 360 unique school reform ideas 
proposed in the Phi Delta Kappan between 1987 and 1997, less than one 
percent focused directly on improving teacher quality (Carpenter, 
2000). And, of the few reforms that have addressed the issue, none to 
date has proved equal to the challenge. None has had the scope, force 
and focus to attract high-caliber talent to the American teaching 
profession, then to motivate, develop, and retain it.
    Unfortunately, the current academic quality of students pursuing 
careers in teaching is not very high. Students who express an interest 
in teaching tend to score at the bottom of college and graduate school 
entrance examinations such as the SAT and GRE (Educational Testing 
Service, 1999). And for those currently teaching, quality varies 
tremendously. Good teacher produce six times the learning gains when 
compared to ineffective teachers (Haycock, 1998).
    It is ironic that this testimony is being written on the half 
century anniversary of the landmark Brown v. Board of Education 
decision outlawing deliberately segregated schools. Yet today, more 
than 60 percent of black fourth-graders can't read. The achievement 
gaps between students with different ethnicities, languages, and 
residences persist. I have attached some charts to demonstrate the low 
levels of achievement in the U.S. today and some illustrative gaps \1\.
---------------------------------------------------------------------------
    \1\ To help readers understand the charts at the end of this 
testimony, several points are offered; (a) the proficient level on the 
NAEP is the minimum desired goal, and those scoring below basic simply 
cannot read, (b) to give some perspective to NAEP scale scores, the 
data suggest that an increase of ten points on the NAEP scale is 
roughly equivalent to an increase of one grade level, (c) to be 
considered ``college ready,'' a student must graduate from high school, 
must take certain courses in high school that colleges require for the 
acquisition of necessary skills, and must be able to demonstrate basic 
literacy skills.
---------------------------------------------------------------------------
    Despite Brown's ending state-sanctioned segregation, many urban 
districts today are overwhelmingly comprised of minorities, leading to 
the charge that American public schools have been ``re-segregated.'' 
This ignores the demography of many large cities where small shares of 
school-age children are white. It also implies that Black and Latino-
dominated schools are unable to provide high quality education. That 
implication is contradicted by the many minority-majority schools that 
do achieve significant student learning gains.
    The emphasis on segregation detracts from the fundamental fact that 
too many minority children are being denied a quality education--that 
there is not yet equality of educational opportunity. Research shows 
that schools can get substantial achievement gains even for students 
from the most deprived social, family and economic circumstances. And 
the most important school-related factor affecting student achievement 
is the quality of the teacher.
    But we do not have enough high quality teachers, and there is a 
serious mal-distribution of the best. The best teachers usually want to 
teach where their job will be easiest, safest and most rewarding, that 
is, in schools with higher SES families. The most qualified teachers in 
the inner city are most likely to move when there is an opening in the 
suburbs. They rarely get any recognition, financial or otherwise, for 
staying with the more challenging situation. New teachers fill the 
vacancies in the in the poorest schools, spend their first few years 
trying to figure out what to do, and by the time they become effective 
teachers they move on, only to be replaced by other neophytes. 
Meanwhile, the most advantaged children are assured a constant flow of 
the best teachers.
    So we must develop models that will attract more of our best and 
brightest into teaching, then help them develop as effective teachers, 
and keep them in the profession. More importantly in the spirit of 
Brown, we must keep many of our best teachers in schools where they can 
help our most needy students. Significant extra compensation for those 
teaching in the poorest schools will help. Equitable distribution of 
resources (e.g. textbooks, equipment) will help as well. It is crucial 
that we no longer think of teachers whose students end up with the 
highest test scores as the best teachers, because many high achievers 
get much out of school support, so they start from a higher position. 
Alternatively, we must recognize and reward those teachers that get the 
greatest learning gains from their students, regardless of where they 
start or end up. If the most effective teachers are incentivized 
(rewarded) for helping students learn rather than for what students may 
already know, many of the best teachers will seek to teach those who 
have the most to learn.
    When the quality of teachers available to minority students is as 
high or higher than the quality of teachers available to whites, all 
children will have equal opportunities to learn, which was the real 
purpose of the Brown decision. And that is the goal of the Teacher 
Advancement Program (TAP) as well.
    TAP counters many of the traditional drawbacks that plague the 
teaching profession: low compensation, lack of career advancement, 
unsupported accountability demands, little collegiality, and 
ineffective professional development that plague the teaching 
profession. TAP provides an integrated solution to these challenges--
changing the structure of the teaching profession within schools, while 
maintaining the essence of the profession.
    In designing TAP in 1998, the Milken Family Foundation (MFF) staff 
surveyed the research, consulted extensively with academics and 
outstanding elementary and secondary school teachers and principals, 
and applied experiences from success in the private sector. From these 
sources, we created a five-principle approach. Today, we recognize the 
close alignment of TAP to No Child Left Behind, specifically Title II 
that deals with teacher quality.

                       The Five Principles of TAP

1. Multiple Career Paths
    In a traditional school, a single career path exists for all 
teachers. Teachers with one year of experience or 20 years generally 
hold the same position, are engaged in the same activities, and have 
similar authority and responsibilities. There is no potential for 
quality teachers to grow in their careers; so many simply leave 
(Elmore, 2000). TAP provides new opportunities for teachers who perform 
at high levels and have the desire and qualifications to move along a 
career continuum of as many as six ranks. TAP schools reconfigure their 
staff by creating master and mentor teachers who are selected through a 
rigorous performance-based selection process. As a result, these expert 
teachers now have influence over a much larger contingent of students 
because it is their responsibility to improve all the teachers under 
their care. Teachers take on increased responsibilities with 
commensurate compensation as they progress in the TAP career path. 
``Career ladder'' programs have been tried in the past, most to no 
avail. Basically, they identified the best teachers, gave them more 
responsibility and some honor, but little if any extra compensation for 
their extra work. In this respect, TAP provides significant additional 
compensation to master and mentor teachers for their qualifications, 
responsibilities and performance. It makes these extras worthwhile.

2. Performance-based Accountability
    In most schools, teacher evaluations are performed by an 
administrator once a year, and consist of classroom observation scored 
against criteria with minimal emphasis on content knowledge, effective 
instructional strategies, and what students are learning. Teacher 
evaluation practices at the school level typically do not incorporate 
teaching and learning elements that have been identified through 
research as having a positive impact on student achievement. With this 
weak teacher accountability system, the vast majority of teachers 
(99.999%) are rated satisfactory or above (Loup, Garland, Ellett & 
Rugutt, 1996).
    In TAP schools, each teacher is observed 6 times by multiple, 
trained and certified evaluators (e.g., the principal, master teachers 
and mentor teachers). Rather than a pass/fail system, TAP grades 
teacher performance on a five-point scale--ranging from unsatisfactory 
to exemplary on the 21 TAP Effective Teacher Performance Standards that 
are based on a large body of research from education and cognitive 
psychology. Since few teachers are rated as fives, our belief is that 
every teacher can improve, even the best ones.
    While classroom observation is an essential component to measure 
teacher quality, so is student achievement. Part of each TAP teacher's 
evaluation includes the value-added classroom achievement gains the 
teacher produces, as well as the school achievement gains from one year 
to the next.

3. Market-Driven Compensation
    In a traditional school, teachers are paid on a salary schedule 
where pay increases as years of experience and education credits 
accrue. All teachers with the same experience and credits, no matter 
what, where, or how well they teach, are paid the same. Teachers who 
excel, as demonstrated by their classroom practices and their students' 
achievement, receive the same salary as teachers with the same years of 
experience and credits who demonstrate little talent and produce little 
in the way of student achievement gains. This, despite research 
indicating that neither a teacher's years of experience, nor an 
advanced degree can predict increased student achievement (Greenwald, 
Hedges & Lane, 1996; Hanushek, 1989).
    Research has also shown that performance award programs are 
successful when they are integrated with strong school leadership, 
professional development, reliable analyses of student performance, and 
strong feedback (Odden & Kelley, 1996; Odden, 2000).
    The market-driven compensation principle in TAP provides school 
principals with the flexibility to compensate teachers differently 
based on their position (e.g., career, mentor or master), their 
performance, and the performance of their students. Furthermore, 
principals are encouraged to offer competitive salaries to attract 
teachers to hard-to-staff subjects like math and science, and hard-to-
staff schools. Most TAP demonstration schools have permitted teachers 
to continue receiving increases in their salary according to their 
district's salary schedule, while paying master and mentor teachers a 
salary augmentation. Each school establishes a performance award pool 
to pay for bonuses based on an individual teacher's yearly performance.
    Many former and current performance pay plans have not succeeded 
because performance bonuses are too small considering the extra work 
required. Further, the principal alone often determines ``performance'' 
in these plans, leading to charges of favoritism and bias. In TAP, 
performance is determined by multiple evaluators and multiple classroom 
observations, some announced and some unannounced. Part of the bonus is 
based on school-wide achievement gains and achievement gains of the 
students of individual teachers (value-added).

4. Ongoing Applied Professional Growth
    In a traditional school, the principal often contracts professional 
development services that are half-day workshops led by outside 
consultants, or provides release time for teachers to attend classes or 
conferences held off-site. The assumption is that after this training, 
teachers will apply what they have learned in their classrooms. 
However, research on teacher professional development informs us 
otherwise. Studies of teacher learning tell us that learning is most 
likely to occur when teachers:
    <bullet>  Can concentrate on instruction and student outcomes in 
the specific content and context they teach;
    <bullet>  Have sustained opportunities to experiment with and 
receive feedback on specific innovations;
    <bullet>  Collaborate with professional peers, both within and 
outside their school; and
    <bullet>  Have influence over the substance and process of 
professional development (Desimone, Porter, Garet, Yoon, & Birman, 
2002; King & Newmann, 2000; Newmann, Bryk, & Nagoaka, 2001).
    These optimal teacher-learning conditions can occur in schools that 
use the varied expertise of their own teaching staff. The TAP career 
path establishes a structure where master and mentor teachers provide 
ongoing professional development, conduct classroom demonstration 
lessons, give regular feedback on specific teaching and learning 
innovations, and design professional development opportunities to meet 
their fellow teachers' content and grade-level needs. By providing time 
for weekly, site-based and teacher-led professional growth activities 
during the school day, TAP schools focus on issues that are current and 
relevant to classroom practice.

5. Expanding the Supply of High Quality Teachers
    TAP schools expand their teacher recruitment and outreach efforts 
by advertising for positions outside their school, district or even 
their state. We encourage schools to seek mentor and master teachers 
from beyond their own current staffs. This ensures that the very best 
people available provide leadership and professional development to the 
staff.

                             Impact of TAP

    Over the next ten years, America will need roughly two million new 
teachers, and as many as possible should be of very high quality. While 
some may see the ensuing teacher quantity and quality shortages as a 
crisis, we see it as an opportunity to significantly reform the 
structure of K-12 education to focus on its most valuable assets--
quality teachers. The implementation of TAP allows schools and 
districts to meet some the challenges they face. TAP is a whole school 
reform intended to recruit, motivate, develop and retain high quality 
teachers in order to increase student achievement. Here are some of the 
highlights of the current year.
    We now have three years of results from TAP schools in Arizona and 
two years from TAP schools in South Carolina. We compared 25 year-to 
year changes in student achievement in TAP schools to control schools. 
In 17 of these cases, or 68% of the time, the TAP schools outperformed 
their controls. The RAND study of Comprehensive School Reform (CSR) 
schools concluded that 50% of the CSR schools outperformed their 
controls in math and 47% outperformed their controls in reading, 
although the CSR schools had been operating for a substantially longer 
period of time than TAP. One important anecdotal explanation for the 
success of TAP is that teaching in TAP schools is improving 
significantly.
    Further, collegiality and teacher satisfaction has remained strong 
in the TAP schools, despite conflicting research that suggests that 
teachers who are part of a performance-pay system will experience 
increased competition and dissatisfaction. These attitudinal results 
reflect the holistic approach of TAP that combines an accountability 
system with clear rewards, and a professional development system to 
support all teachers in improving their classroom instruction.
    Additionally, in Arizona, we are seeing some very talented teachers 
moving from high SES schools that are not doing TAP to low SES schools 
that are doing TAP. Over the past three years, 61 teachers have started 
working at the two lowest SES TAP schools in the Madison School 
District. Of these, thirteen (21%) have come from high SES schools and 
are considered to be among the very best teachers from the Madison 
schools or nearby districts. These early results from our TAP schools 
are very promising and coupled with the anecdotal evidence from 
teachers, parents, principals and students, we are optimistic about the 
student achievement gains that will be evident as the program becomes a 
part of each school's culture.
    One year ago, TAP was being piloted in six states (Arizona, South 
Carolina, and Arkansas, which were subsequently supported in part by a 
Fund for the Improvement Education (FIE) grant; the Archdiocese of 
Indianapolis and Eagle County, Colorado, which are funded by other 
sources; and Florida, which had two schools at the time funded by a 
state appropriation for the Florida Mentor Teacher School Pilot 
Program). During the past year, we have added five more pilot schools 
in Florida, and five schools in Louisiana. In addition, as will be 
described below, all the schools in Sumter County, Florida have begun 
to implement TAP bringing Florida's total to 17 schools. Next fall 
Minnesota will begin TAP in at least six schools and Ohio will join the 
program. By the end of the current academic year, we will have at least 
70 schools implementing TAP across the county, up from 31 in the 
previous year. We are serving over 34,000 students with over 2,100 
teachers.
    The Florida legislature has passed the BEST (Better Education for 
Students and Teachers) program, which provides $25 million this year to 
support pilot programs, either TAP or TAP-like, to recruit, retain, 
develop and motivate highly qualified teachers. Under BEST, Florida has 
funded four districts from January to June, 2004, and one of these, 
Sumter County has decided to do a pure TAP model in all their 10 
schools with the assistance and support of MFF.
    The state of South Carolina has decided to include TAP as one of 
the options for the schools in that state that need to improve 
(referred to as their ``technical assistance program''). Currently we 
have several new South Carolina districts inquiring about adopting TAP, 
and the numbers are expected to increase significantly.
    Minnesota received a federal grant to pilot TAP in a large urban 
district, and a rural district, Waseca County. The evaluation will 
compare TAP to several ongoing performance pay plans.
    Each year we hold a national TAP conference to enable participating 
TAP states, districts, and schools to share their experiences, and so 
states interested in joining the program can learn more about TAP. We 
received requests from eight new states to attend the most recent TAP 
conference, and this resulted in Texas and Ohio starting the process to 
participate in TAP.
    Currently the TAP program operates primarily in elementary and 
middle schools. We have begun implementation of TAP in three high 
schools, and expect more to be added next year. We are working to 
develop a full high school model.
    Our program is gaining substantial national visibility. TAP was 
highlighted by the Teaching Commission, whose recommendations look like 
a prospectus for TAP, by Connect for Kids, and by Secretary Paige 
himself, who in a speech at Dartmouth College said, ``I am a big fan of 
the Teacher Advancement Program--'' And recently, Undersecretary of 
Education Eugene Hickok visited a TAP school in urban Louisiana. He 
talked about is support for TAP because it emphasizes teachers. ``In so 
many places teaching has become such a solitary enterprise, it's so 
sad,'' he said. ``It should be collegial.'' TAP is collegial. We are 
pleased that TAP is reported on in a very positive manner in both the 
national and local press on almost a weekly basis. We would be happy to 
provide copies of the articles.
    While TAP yields many positive results, the cost of TAP is roughly 
$400 per student per year. These funds are required to pay supplements 
to master and mentor teachers, to provide performance awards, to hire 
replacements for master teachers, to hire specialists to free up 
regular teachers to attend professional development cluster groups, to 
cover costs of additional testing where necessary, and to pay teachers 
for extra training days. Too many reforms skimp on money and so become 
trivial programs that do not garner attention and support from 
teachers. TAP is significant in terms of compensation and 
professionalism, but that costs money.
    TAP schools are being supported by a variety of local sources 
including legislative appropriations, increases in property tax levies 
targeted for TAP-like programs, sales tax increases, general revenues 
from state budgets, and district funds. We are working with all current 
and prospective states to develop additional funding sources so they 
can take over full funding of TAP. We believe that the long-term 
survival of TAP depends upon the states and districts identifying state 
and local sources of funds (including NCLB funds), as opposed to grants 
from private foundations or the federal government.
    We are working to encourage participating schools to utilize their 
NCLB funds, especially their Title II funds to pay for TAP. Indeed, the 
Non-Regulatory Guidance for Improving Teacher Quality State Grants 
issued in January, 2004 says ``Title II, Part A funds can [also], as 
part of an overall strategy to improve teacher quality, be used for 
teacher incentives (e.g., to recruit teachers for hard-to fill 
positions or retain teachers who have been effective in helping low-
achieving students to succeed) or to pay the salaries of master 
teachers who provide or coordinate professional development services 
for other teachers.'' In essence, this is TAP. The following chart 
describes how NCLB funds are being used for TAP.

[GRAPHIC] [TIFF OMITTED] T3983.001

    Although the situation has improved in the past year, our 
experience is that few states have been willing or able to utilize 
enough of their Title II funds to fully fund TAP. Much of that money 
was committed previously for class size reduction or for existing 
professional development programs. As TAP becomes a more proven 
program, more states are taking advantage of NCLB funds to embark on 
TAP. Also, as state budget outlooks are improving, more state money 
will be forthcoming. Nevertheless, the current situation is one where 
states that are participating in TAP or intend to do so have some money 
to support TAP, but are continually seeking new sources of private and 
public support to enable the purest conformity to the model, and to 
expand the number of TAP schools. The Milken Family Foundation spends 
approximately $3 million annually to support TAP schools. This support 
is provided through ongoing technical assistance to the schools; 
collection and analysis of data on teacher attitudes and performance, 
and student achievement; annual program reviews of TAP implementation; 
support for directors who work closely with MFF to oversee 
implementation of TAP at each school; and ongoing development of 
training modules and implementation processes to improve TAP 
nationwide.

                               Conclusion

    By providing an effective strategy for reform, TAP is working to 
turn teaching from a revolving-door profession into a highly rewarding 
career choice. The real reward will be the outstanding education 
available to each and every student in the country.
    In TAP schools, high quality teachers are recognized and promoted; 
they have access to focused ongoing professional development; they work 
in a collaborative environment; and they are compensated differently 
based on their skills, knowledge, responsibilities, how they teach, and 
how much their students learn. This structure is very different from 
traditional schools. We are already seeing that these structural 
changes, modeled on existing best practices in business and on 
research-based strategies in education and the social sciences, provide 
opportunities for teachers in the same way that opportunities are 
available to employees in many other industries (Schiff, 2001). This is 
resulting in improved student achievement as well.
                                 ______
                                 
    Chairman McKeon. You know, as I listen to each of you, I 
feel excitement and I feel frustration and lots of different 
emotions because I see such tremendous potential, and yet we 
have also had lots of criticism.
    Years ago I had a friend that was a principal in a high 
school in the LA city school system, and he told me that they 
had just done a study.
    And they found that from the time somebody conceived an 
idea in that school district until it became fully implemented 
throughout the district, it took 25 years.
    And the problem is, how many children go through that 
system in those 25 years? And I think that's why the concept of 
No Child Left Behind came.
    We can't afford to leave children behind, whether it's your 
grandchildren, my grandchildren, our children.
    You know, every one of these children is precious and every 
one of these teachers. I don't think anybody goes into teaching 
that doesn't want to be successful.
    And yet some of them are not successful. Some of them start 
out being successful and fade away or go into something else.
    I remember when we were holding hearings a few years ago on 
teacher preparedness, I would ask each of the witnesses what 
you've kind of all referred to is, and I asked it specifically 
the way you doctor did, Dr. Solmon.
    If you had the opportunity as a mother, you know that some 
of the teachers are better than others and you want to make 
sure--you know, my wife was PTA president so she could be close 
to the school because that had an impact on which class our 
children got into.
    But I would ask the question, if you had a choice because, 
I mean, there was a lot of emphasis on smaller class size, like 
that was the end of all problems.
    And every mother that I talked to, if she had the choice of 
taking, as you put it, the best, most exciting teacher, even 
for a large class, versus a teacher that was not excited, 
whether it happened to be a brand new teacher or one that was 
burned out on the subject with a small class, which would you 
choose?
    And they'd always pick the larger class size because, to 
me, the most important person in education is the parent and 
then the teacher. The parent has to get them started and then 
the teacher has to create the excitement and teach.
    And each of us can think back to great teachers we had in 
elementary school, high school, college. Wherever we were, we 
can think of good teachers and what an impact they had on our 
lives.
    I have a letter in my desk in Washington. I should just 
carry it with me all the time, but it was from my third grade 
teacher a few years ago. And I'm not sure if she's living now, 
but I received a notice from someone she had moved out of the 
area. I mean, I didn't live in the area.
    But somebody knew that I had been in her class. And she was 
turning 100 and asked if I could do something to honor her. And 
we sent her a flag and a commendation.
    And she sent me back this letter telling me how--I was the 
oldest of five sons. I think all of us had her for the third 
grade. And I remember her saying what a good job my parents had 
done and how they raised good boys and she was happy that she 
had been my teacher.
    She says, now, I want you and President Bush to do this and 
this and this. Still working, still excited at age 100, still 
giving directions to a student.
    And I have seen teachers. I have gone in classrooms. And 
you just get a feeling, you know. You look at what they have on 
the wall and you can just feel excitement.
    I have seen great principals that have taken me around 
their schools, and I have seen, you know, in this classroom on 
the door it says ``A great teacher is teaching in this 
classroom.''
    And you walk in and you feel it and you can feel excitement 
generating from the teacher, from the principal, and it makes 
you feel really good.
    And then I have been in the classrooms where teachers 
probably should be doing something else. And it's hard to make 
a change. I visited a class and this was a magnet school where 
they brought good kids from all over the city into this area. 
And I went to the student government class.
    And this is a guy, the teacher, that should have been one 
of the best because these were 8th graders that were, I mean, 
just 8th graders going on Ph.D.s, you know.
    And I walked in. I had already visited some of the 
classrooms, then I walked into his classroom, greeted him at 
the door. Nothing against beards and long hair, but they kind 
of maybe indicate something sometimes.
    And I said, how's it going?
    He says, great. It's almost 3 o'clock.
    And I thought, well, that's a good start. I started 
visiting with the kids and I started--I could feel what he was 
putting into them coming back. Why can't we get more money for 
more supplies? Why don't we have this and that?
    At 3 o'clock he left. I mean, we were in a nice visit. He 
left. And I thought, what a shame, you know. What a golden 
opportunity.
    And he was an attorney. Nothing against attorneys.
    But I think he probably had not been successful as an 
attorney and thought, well, I'll be a teacher. And he's 
probably not teaching any more, I hope, because he was 
certainly not helping those young people.
    And after a while I listened to all these complaints about, 
we don't have this and we don't have that. And I said, have any 
of you heard of Abraham Lincoln?
    Yeah.
    I said, you know, it seems to me that Abraham Lincoln 
learned by candle light from his mother reading to him out of 
the Bible and a few good books. And she instilled in him a 
desire to learn. And, you know, what did we get from Abraham 
Lincoln?
    So that teacher could have taken that golden opportunity. 
And then I have seen countless examples of great teachers.
    When I was on the school board we instituted a program to--
I went to a seminar and they brought back this idea. And so I 
told the superintendent, I want to have, in one of our meetings 
each month, of what's good in education.
    He's saying, you know, we have tried that in the past, and 
we would go in and the teacher would start making a 
presentation and some of the school board members took out a 
paper and were reading papers.
    And I said, well, let's try it. We get in and I remember 
some outstanding things. We had a teacher in--this was a high 
school district. And I remember at the start of our meeting we 
started with what's good in education?
    This teacher walked in in Cardinal's robes speaking French. 
You know, we all sat back. I thought, what an impact that has 
on children. I mean, do you think that wouldn't make them want 
to learn French?
    And we had another teacher that taught a positive attitude 
course, and those sections filled up immediately. He was also 
the baseball coach.
    And I remember he started out, he had took a potato and he 
took a straw and he stuck that straw through the potato. I 
don't know how many times I have tried that, but I never could 
do that. But he just motivated and excited those kids.
    What is a teacher worth?
    I tell teachers the story of, you know, you can count the 
number of seeds in an apple but you can't count the number of 
apples in a seed.
    And teachers and mothers do not get immediately compensated 
for their work. Many times they don't see the benefits of their 
work for 20 years.
    I would love to go back and talk to Mr. Vernon who was my 
physics teacher in high school or Mr. Waldo who was my 
chemistry teacher and thank them for what they did.
    You know, they were never paid enough but they put in the 
time. They excited students.
    Some of you referred to compensation for teachers and how 
we have performance-based compensation.
    How do we do that?
    That's a question you can all respond to.
    Dr. Solmon. Well, the way we do it is, we do it as a bonus 
because we didn't want to initially attack the salary schedule 
which is, as you know, depends on years of experience and post-
baccalaureate credits for increases.
    Those things do not seem to be related much at all to what 
students learn. The first 5 years of experience seems to make a 
difference with that. After that, not much.
    So we try to add on to that a bonus based on how they 
perform, how teachers perform in class, based on scientifically 
studied behaviors, and how their students achieve.
    But what I would want to say is that I agree that a lot of 
teachers are paid too little but probably some are paid too 
much. The one----
    Chairman McKeon. I agree with you totally. And I come from 
a background of retail business. And we had incentives for our 
employees. I mean, everything was built around sales and how 
you increase sales and how you increase through pay and 
motivation. I understand how to do that.
    What I mean is, how do you do it in today's world with 
unions and their opposition? I mean, has the world changed? 
When I was on the school board, nobody was going to be paid 
more than somebody else. I mean, that was taboo.
    Dr. Solmon. We made a presentation actually on Tuesday to 
the American Federation of Teachers at their policy meeting in 
New York, and they were quite receptive, not all unions. But 
the American Federation of Teachers who apparently worked on 
some of the No Child Left Behind legislation as well, they keep 
saying as long as its fair.
    And when the evaluation system is transparent, when there's 
opportunities for teachers to get better, where no teachers are 
hurt by performance pay, they're willing to think about it.
    Chairman McKeon. How are you finding it?
    Dr. Butterfield. Well, in the State of Arizona, the 
districts are using Prop 301 monies in that arena in terms of 
rewarding teachers, but that can be viewed as very shallow. I 
mean, every teacher, for example, might be getting a stipend.
    Going back to my comments and Lewis mentioned it also, I 
think that's why our state is investing incorporating a value-
added system and look at truly linking teacher accomplishments 
with students achievement.
    Chairman McKeon. And how does the union feel about that.
    Dr. Butterfield. I can't speak for the union regarding 
that.
    Chairman McKeon. But are you running into opposition.
    Dr. Butterfield. I would guess that might be the case.
    Dr. Solmon. But actually they work very closely in the 
Madison School District with the program there.
    I mean, as long as they are involved and the teachers like 
it--you might ask the principal to talk after the testimony and 
see what it is.
    But my impression is that the unions, when they are 
involved from the beginning, when they are consulted, when it's 
not imposed top down, they are willing to consider it more than 
if somebody were to come in and say, this is going to happen.
    Dr. Butterfield. And I want to reiterate that I feel, 
personally, and having been in the classroom, teachers want to 
be accountable.
    Chairman McKeon. Mr. Secretary.
    Mr. Simon. I'll give you a first cousin to what you're 
talking about. You said, what works in today's world.
    What many schools are doing and what we did in Arkansas to 
try to at least get the foot in the door to performance pay was 
to reward school-wide teachers where the school had met or 
exceeded the State's expectation on student achievement. That 
did two things.
    One, it promoted collegiality among the staff because it 
wasn't the 4th graders teacher's job to make sure the students 
passed the 4th grade test. It was everybody's job.
    And when the school succeeded, then the money went to that 
school with the expectation, if the school chose, to share that 
in the form of a bonus with all of the staff. That got away 
from any given teacher being singled out.
    We also, when I left Arkansas, were looking at the 
possibility of--this is not exactly performance pay but it was 
more of an objective measure on where we needed teachers. We 
needed math teachers.
    The statistic I gave over 5 years, our teacher training 
institutions had graduated 1,193 PE majors and one physics 
major. Come to find out, the physics major left Arkansas and 
went to North Carolina. So we really had none.
    Shortage areas where we needed teachers, pay a teacher more 
to go into that field. Pay a teacher more to get a degree in a 
shortage area. Pay a teacher more that was actually teaching in 
an area where that teacher had a major, things that we know are 
successful.
    Chairman McKeon. This is your suggestion or what they 
actually did.
    Mr. Simon. That was my suggestion at the time. If I'd have 
stayed around we would have done it. They're making moves to do 
that.
    Chairman McKeon. Do the unions go along with that.
    Mr. Simon. Yes, pretty much.
    Chairman McKeon. OK. Because if we're not all on the same 
page and if we're not all working together--like you say, it 
has to be collaborative and you have to--but not just in 
education, but many times unions will fight to protect their 
weakest person, not the strongest.
    And people that are working--a good teacher that's doing an 
outstanding job next to a teacher that's just putting in the 
time causes real problems.
    Now, you say, if you gave the whole school and you tried to 
get everybody working together, it would increase the 
productivity, it improves collegiality. Also if it's not done 
properly it can destroy collegiality. So that's an important 
thing.
    Mr. Secretary, in No Child Left Behind, we're hearing 
praise, we're hearing criticism.
    What do you see thus far?
    And, you know, I appreciate, you pass a law in January, you 
want the results in June. The regs aren't written yet. It takes 
a long time to get that.
    But what do you see are the real shining points that thus 
far are coming from this law?
    Mr. Simon. I think the shining points, No. 1, and this 
results from direct conversation we have had with teachers, is 
that just the attention that's being paid to student 
achievement is causing student achievement to rise. It's 
causing schools to pay attention to every child.
    While they are arguing whether they really believe every 
child can learn or whether they believe it's fair that subgroup 
size is what it is in a given state, whether they believe 
there's enough money being set aside to do it, what I call the 
form issues, teaching is still going on.
    And this has focused attention on the absolute necessity of 
believing in children and teaching the standards.
    So that alone is causing some improvement.
    No. 2, I think there's a very positive in the fact that 
we're, at the present time, considering 40-plus state 
accountability system amendment requests which tells us that 
states are looking at what other states are doing and looking 
within their own accountability plans and deciding, hey, we can 
do this a little better.
    I don't see it as gaming the system as some people put it. 
I think states are really paying attention to this, really want 
what's best for kids.
    I know that's true in schools. They want what's best. They 
are struggling to find a structure to make that happen and they 
are changing, and I think that's good. They are not satisfied 
with the status quo.
    Our orders from Secretary Page are to wring every ounce of 
flexibility out of the law. I think we have done a good job of 
doing that over the past few months.
    Yesterday I was occasioned to be in Missouri and we heard 
from some superintendents over there making the same comment. 
We think we're headed in the right direction. We appreciate it. 
The dialog is open and I think that's good.
    Chairman McKeon. Thank you. Mr. Porter.
    Mr. Porter. Thank you, Mr. Chairman. I appreciate all your 
testimony. Let's talk about, Dr. Butterfield, some of the 
Arizona challenges. When it has to do with, not necessarily 
teacher recruitment, but what's the term that we use to keep 
them?
    Dr. Butterfield. Retaining.
    Mr. Porter. Thank you. Unscientifically, from my 
perspective, is that as we're living in these fast-growing 
states and we're recruiting from around the world and we're 
hiring a lot of new teachers fresh out of college because of 
the shortage, it seems like many of them may teach in Nevada or 
Arizona for a couple of years but then they end up going home.
    Maybe it's Iowa or Illinois or New York--no, probably not 
New York. People are not going east that far.
    But are you finding that to be the same in Arizona, that, a 
lot of it is they get a couple years under they their belt and 
then they want to move back to their home state?
    Is that a challenge?
    Dr. Butterfield. I would say that's a challenge.
    As I mentioned in my testimony, you know, we're not at the 
top in being ranked for teacher salary. That certainly is an 
impact.
    But I think, in general, having been in the trenches, 
teachers need to be highly valued and provided that 
infrastructure to support them to help them grow to be the best 
that they can no matter whether they are in year one or in 
their 25th or 30th year of teaching.
    I have been in my own situation in a lot of schools. I'm a 
charter school founder. When I founded that charter I 
implemented things with my staff that were very different from 
traditional district schools.
    So I think we need to foster, again, the foundation of 
support for teachers to want them to stay.
    I don't know why their specific reasons are for not staying 
for more than one or 2 years, but I know that our transition to 
teacher program, for example, is doing some neat work here in 
this state in fostering the rolls of Paraprofessionals by 
providing them with the tools and resources that they need to 
be highly qualified.
    And I was talking a contact in Yuma who was stating, you 
know, we were hoping to promote retaining and keeping our 
teachers with this program, but we're finding that if we're 
utilizing the funds to help train our Paraprofessionals, they 
are the ones that want to keep on going.
    They are getting hooked on about life-long learning and 
being provided the structure, infrastructure and support where 
they are now moving on to get their teaching degrees, and they 
are recruiting and retaining simultaneously.
    So I think we need to be looking at the promising and best 
practices that are out there in terms of retaining teachers and 
recruiting them.
    Mr. Porter. On that same line, I see a lot of teachers, to 
elevate themselves financially, decide to go into 
administration because then that takes it to another plateau or 
different levels. That's both good and bad----
    Dr. Butterfield. Correct.
    Mr. Porter.--because a good teacher doesn't necessarily 
make a good administrator or vice versa.
    There is a lot of administrators that I would probably 
suggest they not go to the classroom, but there are a lot of 
talented folks from both ends. But it seems to me we're seeing 
a transition to increase their income into administration; is 
that correct?
    Is that happening in Arizona?
    Dr. Butterfield. Well, I think that's been the traditional 
way that teachers have seen as the only way to move up the 
ranks, so to speak.
    Mr. Porter. But when I talk to teachers, and pay is always 
important, especially with rising gas costs or whatever, is a 
challenge. But I'll be honest with you. The teachers that I 
talk to, that is not No. 1.
    Dr. Butterfield. I agree with you.
    Mr. Porter. Now, it is, certainly, from a union's 
perspective. And that's their job. I appreciate that.
    But I see teachers leaving because of either the lack of 
parental involvement in the classroom or in some cases too much 
because the teacher is not able to discipline the child today 
for fear of lawsuits and other challenges.
    I see teachers leaving because of something you've said now 
three or four times, and that's just elevating the position, 
feeling like they can go someplace else and feel like they're 
getting a little more appreciation.
    But I see a lot of teachers that are leaving early not 
because of pay----
    Dr. Butterfield. Correct.
    Mr. Porter.--but because of these other areas, paperwork--
and I know we're trying to streamline it, Secretary, some of 
the paperwork.
    But I'm very concerned that not only is that happening in 
the classrooms. It's happening in our school boards.
    There is not a more important elected official in the 
community, in my mind, than the board of trustees for a school 
district.
    And in many cases like Nevada, Las Vegas, it's probably the 
largest business in Nevada.
    But what I see happening nationwide is we have a lot of 
wonderful, caring people that run for office for school boards, 
but many of them probably shouldn't because, again, their 
expertise may be in the classroom or they may be a wonderful 
parent.
    But I think we also need to elevate the school board of 
trustees around the country to the position of prominence that 
they deserve and give them the tools they need.
    And I think that would help also all the way down to the 
teachers as we elevate the importance nationwide of being in 
the profession.
    Now, from a Federal perspective, Secretary, I hear 
constantly that we're underfunding education as a whole.
    And if my understanding's correct, under the Bush 
Administration, it's up about 43 percent.
    And then what I hear on the other side of that, those that 
are--and it's a Presidential election year so people will 
complain no matter what, but I what I hear is, we have 
increased funding by 43 percent, we have put all these extra 
mandates on all these districts, so the 43 percent increase 
means absolutely nothing.
    How do you respond to that, Mr. Secretary? How best to 
explain to the community how the dollars are being spent and if 
it's an adequate amount?
    Mr. Simon. A couple of ways. And we're seeing this as we 
view studies that are being done around the country on how 
schools are spending money.
    And by the way, there have been at least three independent 
studies on No Child Left Behind that have said it's not an 
unfunded mandate, two by the GAO and one from Massachusetts and 
another think tank, and I can't recall exactly the name of that 
right now. Anyway, three or four studies have indicated it's 
not.
    What we are hearing, and it's the same concern that 
teachers have told us and principals have told us, that, 
incorrectly, No Child Left Behind is seen as something in 
addition that has to be done in addition to what's going in the 
states right now.
    And if you look at it as in addition to, then I could see 
where people would have the misunderstanding that it's a 
mandate without money attached to it.
    But, in fact, it's not meant to be in addition to. It's 
meant to be in place of. It's meant to be an opportunity to 
work smarter, to abandon the failed practices of the past and 
do things that work for kids.
    We know what a good teacher's qualities are. We know good 
teaching practices. We know good accountability measures. Those 
don't have to be done in addition to. They can be done in place 
of. But we don't want to abandon some things that we're 
comfortable in doing.
    There's been unprecedented levels of funding specifically 
put in place for No Child Left Behind to deal with--states have 
been given money to develop tests. They have been given money 
to use to attract, retain and pay highly qualified teachers.
    They have been given money to provide professional 
development for teachers. Yet we're hearing from teachers that 
schools are doing away with professional development.
    So the reaction doesn't appear to be in tune with the 
spirit of No Child. I think a lot of that just has to do with: 
We don't want to abandon our comfort zone.
    Mr. Porter. Am I correct, is it about a 43 percent 
increase.
    Mr. Simon. Yes, sir. There's several percentages. It 
depends on which one you look at, but yes.
    Mr. Porter. Also from the Federal perspective, I hear a lot 
about class size from those teachers that are in the classroom, 
schools that have 40, 50 kids maybe in the classroom, and that 
also is causing some frustration for a teacher trying to do the 
best they can and, literally, limited time and resources and 
the physical ability.
    Is classroom size a problem nationwide or is it just a 
southwestern phenomenon?
    Mr. Simon. I think class size is a problem everywhere, but 
the problem is not necessarily in the number of children you 
have, although there can be extremes.
    Research shows that until you--most of the research is at 
the elementary level. And most of the research that I've seen 
says you have to get down to a pretty substantially low number, 
and that's somewhere around 12 to 15 kids, to where class size 
really makes a difference.
    Going from 25 kids in a class to 22, and 22 to 18, it's not 
going to make a difference.
    Teachers. It's not necessarily how many children you have. 
Does the teacher know how to deal with the variety of students 
he or she finds in a classroom?
    That's professional development again.
    You can't treat--all children are not the same. Many times 
a child's behavior problem or a child's interest in school, how 
the child feels when he or she comes to school will impact the 
teacher's ability to teach the rest of the kids. There my be a 
distraction.
    That doesn't mean the class size is too big. It just means 
the teacher needs some help in how to deal with those children. 
There are a number of ways of doing that that don't take a lot 
of money. It's strategies of teaching. It's common-sense 
approaches that some teachers don't know how to do. That's why 
professional development on how to deal with that is so 
important.
    As a number of people have said today, I'd rather have a 
high quality teacher that knows the content that has a feel for 
kids in a classroom of 40 than I would an incompetent teacher 
that doesn't want to be there in a class of 20. 40 kids are 
going to come out far better.
    So in my mind, putting money on highly qualified teachers, 
professional development, preparing the teacher both in content 
and pedagogy is a far better use of funds than trying to reduce 
class size unless you have plenty of money to get that class 
size down.
    Chairman McKeon. Dr. Solmon, you had a comment.
    Dr. Solmon. Yes. When they talk about underfunding 
education, I mean, my question always is, what's enough.
    We have a PowerPoint slide that we often show where, over 
the last 30 or 40 years you see funding going like this and 
test scores going like this.
    So in a very macro way, despite the tremendous increases in 
funding over the last several decades, we have seen no increase 
in student achievement. So, therefore, just throwing more money 
at the problem is not going to solve it.
    Another comment I would make, as I'm sure you know, I mean, 
the Federal Government provides 8 percent of spending on 
schools. So I mean, to say that schools can't function because 
the Federal Government isn't providing enough, if they, you 
know, provided, you know, 20 percent more or whatever, it would 
still only get it to 9.6 percent. So it doesn't really matter.
    The comment I wanted to make about teachers leaving, 
although it's hard to imagine that people would leave Nevada or 
Arizona for Iowa, as you hypothesized, is that if they moved 
from Nevada or Arizona to teach in Iowa, it's my understanding 
they would have to go back to school.
    And so, in other words, we don't have interstate 
portability of----
    Mr. Porter. It's a problem coming east to west also.
    Dr. Solmon. Right. So the point is that I think that a lot 
of those people that are going back to Iowa are leaving the 
teaching profession.
    We've got, I think, almost as many people who could teach 
not teaching as we do have people teaching in this country.
    And the other comment I wanted to make, you say that pay is 
not important to teachers. And I agree with that because that's 
why they are teachers. I mean, if the pay was important, they 
wouldn't be teachers.
    But I do have to say that we conducted focus groups of very 
bright young college graduates who had considered teaching but 
decided not to do it.
    And to them, not only was the level of compensation 
important, but the distribution.
    A lot of the kids that--I went into an interview in a 
district and asked them how much I would make if I was the most 
successful teacher 20 years from now because they had always 
been successful in academics and extracurricular.
    And the district recruiting person pulled out the salary 
scale and said, this is what you'll make in 20 years. And he 
said, how about if I'm good? No. This is what you'll make in 20 
years. There may be a new contract, but this is what you'll 
make in 20 years.
    Those people decided to go into law or medicine or business 
or something because they said, if I'm good, I want to be 
rewarded for it.
    So it's not the people in teaching who care about money. 
It's the people who didn't come into teaching.
    Mr. Porter. And I want to make it clear that pay is very 
important. It's just that when I talked to those that are 
leaving, it isn't on the top of the list. It's in the four or 
five. But it is very important.
    But you're right. I think you summarized it well, that a 
lot of it is those that didn't go into the profession, 
absolutely.
    And I'll be honest with you. I don't know how a main bread 
winner could survive on a teacher's salary and raise a family 
and not have another job or have a spouse.
    I mean, I don't know how you can do it. You can't. And that 
is a challenge nationwide.
    Dr. Butterfield. I would also like to add, in regards to 
recruiting teachers and especially those who are the brightest 
ones, whether they are in another profession or recent college 
graduates, the needed area in breaking down the barriers of 
teacher certification, whether it be through reciprocity, state 
to state, maybe taking a look at tiered certification, new ways 
to recognize outstanding teacher accomplishments and their 
achievements.
    Arizona's Certification Task Force is also looking into 
those areas. So it's important to break down barriers.
    Mr. Porter. I'd just like to conclude with one comment that 
I don't think we've addressed today nor will it be answered 
today.
    You know, I mentioned earlier comparing it to the operating 
room of 100 years ago. But if you look at what's required of a 
teacher today as compared to 100 years ago, we're expecting 
teachers to be doctors, lawyers, priests, rabbis, you name it, 
in the classroom.
    The whole system has changed so much. And we expect all 
that out of teachers that are making $40,000 a year.
    But also a lot of parents don't give the teachers the 
support. But then at times maybe that's correct.
    But the child's in a classroom 9 percent of his life or 10 
percent of his life.
    But we're expecting teachers, in 10 percent of that time, 
to be everything to these children. Many of them don't have 
parents or don't have anyone at home.
    And I am convinced that we have to find a way to compensate 
and to encourage, to help this structure as it's changed in the 
last 100 years because it's not just about educating or 
learning.
    It's life skills. It's everything. And we have to find a 
better way to do it together. And I believe we can do it. But 
with a teacher that's expected to do all this in a few hour's 
time, we have to look at the whole system.
    And I appreciate No Child Left Behind. I think it's taken 
major strides in helping set some standards.
    But I think we need to take it to another level.
    And that is, our teachers are counselors and psychologists 
and they are having to be everything to everybody. And I think 
we have to realize that, that the system has changed.
    So thank you all very much for your testimony and for your 
being here.
    Chairman McKeon. Thank you, Mr. Porter.
    And I want to thank all of you today, the witnesses, for 
being here. And if there's something that you wanted to add 
that you didn't get that you would like to have in the 
testimony, we will keep the testimony open and you can get it 
to us.
    This is not, you do something one time and then that takes 
care of it for the rest of eternity. This is a process that 
will continue.
    And so I think it'll take 12 years to fully implement No 
Child Left Behind.
    In the meantime, that kindergarten student will graduate 
from high school but a lot of other children will be coming 
along behind. And we need to do all we can to motivate and 
excite those teachers to every day realize that they have an 
opportunity to change and improve lives.
    And our country depends on it.
    You know, there are other countries around the world now 
that are starting to do a better job of education, and we're 
finding that in some areas we're falling behind. And we need to 
redouble our efforts.
    And I want to thank you, Mr. Secretary, for what you're 
doing to do the implementation.
    You know, this is a very big country. And when I told the 
story about the school district that took 25 years to get 
something through, you can imagine how, as you travel around 
the country, I'm sure you hear people that say, ``well, that's 
not what I heard,'' because there is a lot of misinformation 
out there.
    And if we can do whatever we can to get the correct 
information out there and wherever we find ourselves in the 
role where the water's trying to get down to the end of the 
row, if we can get it past us and help others to get it past 
them because the ultimate person is your grandchild, your 
grandchild, you know, these children out there that maybe don't 
have a grandparent or a parent because we don't know which one 
of them will be the next Einstein or the next person that's 
going to--the next Lincoln, change the world.
    And we can't afford to loose what any of them can give back 
to us. So thank you for your participation here today.
    Mr. Porter.
    Mr. Porter. Thank you. You know, I have to tell you about 
this cartoon before we go. The cartoon was in a Las Vegas 
newspaper probably 7 years ago, and I have kept it. And it was 
an editorial cartoon.
    And it showed a child standing in a circle of people. And 
the child's standing there kind of looking like this. And 
there's a teacher pointing the finger at an administrator 
pointing the finger at a board of trustee pointing the finger 
at a legislator pointing a finger at a Governor pointing a 
finger at a congressman pointing a finger at a senator.
    And the kid's standing in the middle like this.
    We just can't allow that to happen any more because we have 
allowed a lot of the blame game to happen in education. And 
that visualizes for me every day--I keep it in my desk. I see 
it every day--of how we can't allow that to continue. And that 
happens a lot.
    And the second thing I want to leave with you, please take 
a look at background checks on teachers in your states, and as 
you cross the country. Make sure that we, from a security 
standpoint, are doing everything we can also.
    Thank you, Mr. Chairman.
    Chairman McKeon. Thank you. If there is no further 
business, then, this Committee stands adjourned. Thank you.
    [Whereupon, at 12:45 p.m., the Subcommittee was adjourned.]
    [Additional material provided for the record follows:]

  Additional Statement of Karen Butterfield, Ed.D., Deputy Associate 
Superintendent, Innovative & Exemplary Programs, Arizona Department of 
              Education, 1993 Arizona Teacher of the Year

    Dear Chairman McKeon and Congressman Porter:
    Thank you for allowing me the opportunity to testify in Phoenix on 
4/27/04 on issues surrounding highly qualified teachers. I also 
appreciate that additional testimony can be included.
    When the question came up regarding, ``Why are teachers leaving 
(Arizona)?'', which included thoughtful discussion regarding quality 
pay--I and my fellow colleagues at the Arizona Department of Education 
felt strongly that LEADERSHIP is critical at the school, district and 
governance levels, if we are to recruit and retain our best teachers. 
Therefore, it is this element of which I would like to include as 
additional testimony.
    I think we can all agree that highly performing schools are those 
often led by visionary, passionate leaders, who support their teachers 
and staff tremendously. They are highly visible within the school/
community, foster innovation and risk taking, and ensure the right 
tools and resources are allocated for successful teaching and student 
learning. Systematic and systemic ``thinking and doing'', along with 
implementing shared leadership, are imperative elements to embrace if 
schools are truly to change in order to foster highly qualified 
teachers, high quality schooling.
    The Arizona Department of Education has embarked on Arizona LEADS3: 
Leaders in Education for the Advancement and Development of Student and 
School Success. Utilizing three major state partners (City of Phoenix 
as a municipality, a tribal nation and Pima County), we will be 
offering leadership institutes to support and advance student 
achievement through coaching, mentoring and providing resources to help 
school administrators and their teams with disaggregating of data, 
including data analysis. Successful Arizona school leaders will mentor 
and coach those who are struggling with school performance, many of 
which, are dealing with the conditions I mentioned in my testimony 
(``revolving door'' of leadership with administrators/teachers/
governing board members). AZ LEADS3 will focus on recruitment, 
leadership preparation, induction and continuous improvement.
    In this month's Phi Delta Kappan, the article, ``Leading Small: 
Eight Lessons for Leaders in Transforming Large Comprehensive High 
Schools'' (Copland and Boartright), states the imperativeness of 
systemic change in leadership, especially in restructuring our schools. 
Leaders who nurture a different culture of shared, distributed 
leadership, involve the critical stakeholders, and who are willing to 
battle the status quo--provide the necessary conditions for long-term, 
systemic and positive change.
    Although pay and good teaching conditions are important to recruit 
and retain highly qualified teachers, we cannot leave out the most 
important factor in the recruiting/retaining equation--that of 
sustained quality school, district and governance leadership.

                                 <all>

</pre></body></html>
